<html>
<title> - PROPOSED FISCAL YEAR 2008 BUDGET REQUEST FOR THE FOREST SERVICE</title>
<body><pre>[Senate Hearing 110-58]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 110-58
 
    PROPOSED FISCAL YEAR 2008 BUDGET REQUEST FOR THE FOREST SERVICE 

==================================================================== 



                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   IN

 CONSIDERATION OF THE PRESIDENT'S FISCAL YEAR 2008 BUDGET REQUEST FOR 
                     THE USDA FOREST SERVICE BUDGET

                               __________

                           FEBRUARY 28, 2007


                       Printed for the use of the
               Committee on Energy and Natural Resources




                      U.S. GOVERNMENT PRINTING OFFICE
35-971 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    CRAIG THOMAS, Wyoming
TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          RICHARD BURR, North Carolina
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
KEN SALAZAR, Colorado                BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                         Scott Miller, Counsel
          Frank Gladics, Republican Professional Staff Member



                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     1
Craig, Hon. Larry E., U.S. Senator from Idaho....................     2
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     3
Kimball, Abigail, Chief, USDA Forest Service.....................    10
Rey, Mark, Under Secretary for Natural Resources and the 
  Environment, Department of Agriculture.........................     5
Salazar, Hon. Ken, U.S. Senator from Colorado....................     4

                                APPENDIX

Responses to additional questions................................    33


    PROPOSED FISCAL YEAR 2008 BUDGET REQUEST FOR THE FOREST SERVICE

                              ----------                              


                      WEDNESDAY, FEBRUARY 28, 2007

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:45 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. Why don't we go ahead? I understand Senator 
Domenici has been held up in traffic but will be here very 
shortly and since we have several other members here, why don't 
we go ahead? I'll make a short statement and then we'll turn to 
our witnesses for comments, unless Senator Domenici arrives in 
time, or I'll turn to Larry if he has any kind of opening 
statement, of course.
    Today, the committee will consider the President's fiscal 
year 2008 budget request for the Department of Agriculture's 
Forest Service. Witnesses are Under Secretary Mark Rey and the 
Forest Service Chief, Gail Kimball.
    I'd like to particularly welcome Chief Kimball. This is her 
first hearing before the committee since she was appointed as 
the 16th Chief of the Forest Service on February 5. So we are 
very glad to have you here and we appreciate you adjusting your 
schedule.
    It is Under Secretary Rey's sixth year of presenting the 
administration's budget. I think we are getting into more and 
more difficult problems as the years go by, at least from my 
perspective. Let me explain that a little bit.
    The administration is proposing about a 9 percent, or $450 
million, cut from the Forest Service budget that was recently 
passed as part of the continuing resolution. That is the latest 
cut. When adjusted for inflation, the President's fiscal year 
2008 request amounts to a 23 percent or $1.4 billion cut from 
the Forest Service budget that the administration inherited in 
2001.
    During the same period, the Forest Service's costs for 
managing wildland fires has more than doubled, to $1.5 billion. 
This committee held a hearing a month ago on controlling the 
escalating cost of wildfire management, and the implications of 
those rising costs are painfully apparent in this budget.
    This budget would return the non-fire discretionary budget 
to 1996 levels, meaning large cuts in virtually every other 
program in the Forest Service. If the wildland fire management 
portion of the budget continues to grow at the rate that it has 
grown in the previous 10 years, a rough calculation indicates 
that this obligation to fight fires will eat up the Forest 
Service's entire discretionary budget by 2030. In other words, 
if we do not make dramatic changes in how wildland fire 
management is budgeted, it will not be long before the Forest 
Service is simply the Fire Service.
    It's very difficult to put together a reasonable budget 
when you don't have a reasonable amount of money to work with. 
Unfortunately, this budget does make the situation worse in my 
view. Despite the resounding opposition to similar proposals in 
last year's budget, the administration is again proposing to 
sell off national forests to fund a phase-out of the County 
Payments Program and to fully fund the Timber and related 
programs in the Pacific Northwest by cutting funds from other 
critical programs.
    Not surprisingly, these proposals have met with the same 
opposition again this year that they did last year. I do fear, 
however, that they will once again be a distraction from the 
many other important problems with the budget.
    Let me now turn to Senator Craig for any opening comment he 
has and I'll defer to Senator Domenici for his comments when he 
arrives. But why don't you go ahead, Senator Craig? Then we'll 
hear from the witnesses.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Well, thank you very much, Mr. Chairman. Let 
me, too, welcome to the committee Mark Rey and especially Gail 
Kimball. Just a few moments ago, I said hello to her and 
offered her congratulations and condolences. And now you know 
why, Chief Kimball, I have offered you condolences. You've 
heard it from our ranking member and my comments certainly 
reflect his concerns as it relates to the overall Forest 
Service budget and what it doesn't have in it versus what it 
does.
    Of course, I think all of us are frustrated, especially 
those who come from States where you are a very large landowner 
and we not only expect certain levels of performance out of the 
Forest Service; we expect certain levels of maintenance as it 
relates to the human activity on the land, trails--a 
combination of things. Also, I look at it and see that there is 
an $80 million reduction in funding for the general 
preparedness coming out of one of the worst fire seasons on 
record. We are dry in the west again in many areas. The 
moisture is spotted at best. It's hard yet to predict what the 
coming season will be like. It is reasonable to predict that it 
probably would be similar to last year. Of course, firefighting 
remains not only a roar in the trees of the summertime, as it 
burns, but a great sucking sound out of our budgets here. There 
is an unwillingness of Congress to recognize what has happened 
to the Forest Service over the last decade, and that is the 
grand old cash cow of the Forest Service we took away, the 
Timber Sale Program that historically funded the U.S. Forest 
Service. I am frustrated by that. I said when it happened that 
I didn't think Congress would have the willingness to replace 
the moneys and we haven't. As a result of that, we are creating 
an orphan child of the U.S. Forest Service as it relates to its 
ability to do what we think it ought to be doing on the land.
    Having said that, this committee, this chairman and I are 
wrestling now with another orphan child and that is called the 
Secure Rural Schools Authorization. School districts and 
counties became dependent early on in the century for a certain 
percentage of the receipt of those timber sales. Then the 
Craig-Wyden bill offset that loss for a time and here we are 
once again, right in the middle of the political battle over 
that, in an effort to try to find money for some reasonable 
level of funding. The chairman has well said that what the 
administration has offered; I have in blunt terms said ``It 
don't hunt.'' I didn't call it quite a dog but at least I said, 
``It don't hunt'': in relation to what I think our country 
expects of its public land resource, and how we generally 
manage it or exchange it or we shape it, and also in relation 
to the needs of the moment versus the long term environmental 
values.
    Those are all frustrations in that budget. Senator Domenici 
has just arrived. Our ranking member, let me close my comments, 
but I am growing increasingly frustrated that we, here in 
Congress, are starving--as is this administration--for an 
appropriate budget for the U.S. Forest Service. The impacts on 
my State grow in time as the resource becomes less healthy. 
That has to be a concern to my State and I think any forested 
State in the Nation. Thank you.
    The Chairman. Before we hear from the witnesses, let me 
call on Senator Domenici for any opening statement that he 
would have. I made a short statement, and Senator Craig as 
well, but if you have any statement, we'd like to hear it.

   STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR FROM NEW 
                             MEXICO

    Senator Domenici. Thank you, Mr. Chairman. I'll be very 
brief. Thank you for scheduling the hearing. I'd like to 
welcome Under Secretary of Natural Resources and the 
Environment, Mark Rey, and a new Chief of the Forest Service, 
Gail Kimbell. This is your first hearing, Gail, before this 
committee as Chief of the Forest Service and we appreciate your 
willingness to lead the Forest Service during this time. I am 
very hopeful that you will fully implement your predecessor's 
plan to reduce the costs of the Washington office and the 
regional offices by 25 percent so that funding can be shifted 
to the forests and districts where it is so desperately needed.
    I do want to mention three issues that this project brings 
before us with some degree of concern. First, I'm increasingly 
concerned by the administration's decision to fund a bias 
called Arrow Preservation Trust, Senator Bingaman, with only 
$850,000. Perhaps you already made that point?
    The Chairman. I did not make that point, but go ahead.
    Senator Domenici. This is inevitably penny-wise and pound-
foolish. This level is unacceptable in my view. Congress and 
the administration passed the Caldara Preservation Trust Act 
and I think the members on my side both remember that. That was 
an enormous investment, $100 million, to purchase it and put it 
in trust. It makes no sense to me that we would risk the 
success of this program because we are unwilling to provide $4 
or $5 million to provide several years to maintain this annual 
operation of Caldara. I don't know why it's done this way, but 
I tend to think that nobody cares that that's what happens. I 
understand that in the long run, the trust will need to become 
financially self-sufficient, but we are going to have to give 
them some time to accomplish that. It's my view that the 
administration is going to have to find ways to increase their 
budget when they buy Caldara until the trust gets up and 
running.
    Second, I note the proposal adds a line item for 
firefighters' salaries--$219.7 million, and reduces the 
preparedness by an additional $90 million. I also note that 
your budget justification lacked any discussion on these two 
line items. I find this troubling and will have a number of 
questions about the fire preparedness.
    I notice in the survey of Federal firefighters, that many 
are struggling and strongly considering getting out of the 
firefighting because they fear the liability they might face if 
investigated by the Office of Inspector General. Did you raise 
that issue, Senator Craig?
    Senator Craig. No, I did not.
    Senator Domenici. I didn't know. But I think you know 
that's a very big issue, and it's grown, and I hope this budget 
will maintain the 98 percent initial attack fire suppression 
success that you produced in the past. Although quite frankly, 
I don't see how you can do this with these things at the 
proposed levels.
    Last, the 2008 budget proposal continues to include a 
proposal that failed to find much support on the Hill last 
year. I'm speaking about your proposal to sell land to pay for 
the Secure Rural Schools and Communities Self Determination 
Act. Your last proposal on funding of the Secure Rural Schools 
and Communities Self Determination Act will share half the 
revenue that is generated to propose conservation lands in 
States where these revenues are generated. I'm still skeptical 
that you will find sufficient support for this program when 75 
percent of these payments go to Oregon, Washington and 
California.
    Chairman Bingaman, I'll stop here and thank you for this 
hearing and I'm glad you called the hearing today.
    [The prepared statement of Senator Salazar follows:]
   Prepared Statement of Hon. Ken Salazar, U.S. Senator From Colorado
    Thank you Mr. Chairman and Ranking Member Domenici.
    I want to welcome Under Secretary Mark Rey and Chief Gail Kimbell--
it is good to have you here for this annual hearing. And, 
congratulations on your new post Chief Kimbell.
    Healthy forests are important to Colorado because they neighbor our 
communities, protect our watersheds, and provide many of Colorado's 
recreational opportunities. I am not convinced that the Forest Service 
is going to be able to maintain, let alone improve, our forests with a 
budget that is a 1.5% decrease from last year and a 7% decrease from 
2001. I am disturbed that Colorado's region two is looking at a 
proposed 12.5% decrease this year.
    In 2006, Colorado's eleven National Forests and two National 
Grasslands continued to grapple with the effects of drought and insect 
infestations. Thankfully, Colorado escaped the fire season with just 
one fire over 10,000 acres and a total of 41,000 acres burned. However, 
bark beetles continue to take advantage of dry conditions to run 
rampant, killing trees and further elevating the fire danger for this 
coming season. It is estimated that in 2006 around 5 million lodgepole 
pines on 645,000 acres were killed by mountain pine beetles. The 
widespread extent of this drought and infestation has alarmed many 
communities in Colorado, and I am alarmed too.
    I am alarmed because there is a tremendous amount of hazardous fuel 
work to be done in Colorado. The Forest Service reports that 113 
projects covering 280,000 acres of hazardous fuels treatments in 
Colorado have been approved through NEPA and are available for 
implementation pending funding. In fact, 65% of these treatments are 
located in the wildland-urban interface, and another 235,000 acres are 
being analyzed for approval.
    Unfortunately, the Forest Service reports that it implemented just 
73,662 acres of treatments in Fiscal Year 2006 due to funding 
limitations. I don't want to make the mistake of assessing progress 
based solely on acres treated, but it is clear to me that Colorado's 
hazardous fuel conditions are deteriorating faster than current funding 
is able to address.
    A second important issue for Colorado was identified by former 
Chief Dale Bosworth. He named unmanaged recreation as one of the four 
threats facing our National Forests, but this budget cuts funding for 
recreation management by 9% (a 12% cut in region two). In Colorado, we 
have environmentalists working with off road vehicle groups on one of 
the few issues they agree upon-the need for better recreation 
management and funding, and I support that goal.
    I look forward to hearing more about these, and other, provisions 
in the budget in your testimony. Again, thank you for being here.
    Thank you, Mr. Chairman.

    The Chairman. Well, thank you very much. Why don't we go 
ahead with Secretary Rey and then Chief Kimball, and hear their 
testimony, and then we'll have some questions. Secretary Rey, 
welcome.

 STATEMENT OF MARK REY, UNDER SECRETARY, NATURAL RESOURCES AND 
           THE ENVIRONMENT, DEPARTMENT OF AGRICULTURE

    Mr. Rey. Chairman, members of the committee, thank you. I 
appreciate the opportunity to discuss the President's fiscal 
year 2008 budget for the Forest Service and I am pleased to 
join Gail Kimball here, the newly appointed Chief of the Forest 
Service, at her debut hearing before the committee today. Gail 
has served at all levels of the agency as a career civil 
servant, in a 30-plus year career in the Forest Service, 
including in many of the States that you represent.
    I'll discuss three issues that relate to the 2008 budget. 
First I'll talk about changes to the wildland fire account and 
associated issues. Second, I'll talk about the re-authorization 
of secure rural schools legislation and then third, I'll speak 
very briefly about funding for the Pacific Northwest Forest 
Plan.
    The 2008 budget proposes a total of $1.9 billion for 
activities associated with wildland fire management, including 
a new appropriation for wildland firefighters and other cost-
saving measures. The events of the 2006 fire season, as we 
described vividly in the January 30 hearing before this 
committee, make a compelling case for the strategic changes 
that we're proposing in the 2008 budget. Congress has 
repeatedly expressed concerns as recently as the January 30 
hearing about rising fire suppression costs. Large fire costs 
are a persistent challenge for the agency and threaten to 
compromise the achievement levels of other critical mission 
areas.
    In response, a number of key actions are underway in fiscal 
year 2007 and the 2008 budget request makes additional 
significant proposals. Our funding request for both the 
preparedness and the suppression accounts are tied to these 
reforms to help better control firefighting costs as a 
percentage of the overall budget.
    Among the reforms that are being made in 2007 and in 2008 
is that the 2008 budget reflects refinement of the concept of 
appropriate management response toward a risk- informed fire 
suppression approach. This approach provides risk-informed fire 
protection by introducing the concept of managing wildland fire 
in relationship to the risk that a specific incident proposed.
    We are also implementing in 2007 that the Forest Service 
will designate an individual with access to a support team to 
provide oversight on fires of national significance and 
assistance to local units. He or she will collaborate with the 
Department of the Interior on Department of the Interior lands 
as an express measure to affect cost controls on large 
incidents, which comprise the largest portion of our 
suppression account costs.
    Third, national resources, such as smoke jumpers, hot shot 
crews and helicopters, will be moved to areas and incidents 
based on predictive services and on planning levels as national 
shared resources. That should reduce the number of assets that 
are deployed initially, by deploying them more effectively 
across the board.
    Fourth, aviation resources will be managed more effectively 
to reduce their high cost. A full time national helicopter 
coordinator will be selected to provide oversight for the 
assignment and positioning of helicopters. Helicopter 
management will be centralized as a national resource.
    We will shift to more exclusive use versus call-when-needed 
contracts for helicopters to increase the aircraft hours 
available at a lower unit cost.
    Finally, we will be making efforts to maintain our initial 
success attack while reducing the dependence on severity 
funding. The Forest Service will acquire lower thresholds for 
the approval of severity funding to be elevated for approval by 
the Chief. National shared resources will be pre-positioned, 
whenever possible, in geographic areas where the fire risk is 
greatest during the fire season.
    Now let me talk about the Secure School and Community Self 
Determination Act, which we will talk about at greater length 
at tomorrow's hearing. That legislation was enacted to provide 
transitional assistance to rural communities affected by the 
decline in revenue from timber harvests on Federal lands. The 
last payment authorized by the Act was for fiscal year 2006 and 
was made in December 2006. The administration continues to be 
on record in support of a 1-year extension of the act with 
agreed-upon offsets as an interim step.
    In addition, we are submitting the National Forest Land 
Conveyance for Rural Communities Act to authorize a 4-year 
extension of funding formally provided by the 2000 legislation. 
The legislation would also provide conservation funding for 
national forests and grasslands. Sale of identified national 
forest system lands would provide funding to replace that which 
the 2000 legislation provided.
    Our proposal would authorize the Secretary to sell 
sufficient national forest land to fund an $800 million 
account. Under the legislation, 50 percent of those receipts 
would be used as a funding source for the school payments and 
the other 50 percent would be used as a funding source from the 
States within which the land was sold, to be used for land 
acquisition and conservation purposes. Given the difference 
between the value of the lands we're selling and the lands we 
would acquire, we anticipate that we acquire twice as many 
acres under this proposal as we would sell, thereby 
increasing--not decreasing--the net Federal estate, and doing 
so in a fashion faster than we can do it today under standard 
land exchange practices.
    So if the concern over our proposal last year is that it 
would result in a reduction of Federal acres, we have listened 
and honestly met that concern by changing the proposal this 
year into a proposal that could fund land acquisition. This 
could result in increasing net Federal acres over what we start 
with and funding secure rural schools as part of the bargain. 
So I urge you, as we talk about this today and again tomorrow, 
to keep that change in mind.
    Last, our 2008 budget proposal proposes full funding for 
the Pacific Northwest Forest Plan. As many of you know, that 
plan was developed by our predecessors in the Clinton 
Administration as a compromise, a compromise which reduced 
timber harvest levels in western Washington, western Oregon and 
northern California, from about 6 billion feet per year to 
about 1 billion feet per year. The provision of that 1 billion 
feet of timber was a commitment expressly made by our 
predecessors but never realized. As a consequence of the 
complexity of the plan, litigation was subsequently attendant 
to it. As a consequence of our efforts over the past 4 years, 
we have simplified the plan, overcome many of the legislation 
barriers to providing that raw material and are now proposing 
to redeem the commitment made by our predecessors to fully fund 
the implementation of that plan and to see those reduced timber 
harvest levels realized. The concomitant benefit of that in 
Oregon, Washington and northern California is that it will 
reduce the need for funding from other sources to support rural 
schools. So it has a double benefit, much like our proposal to 
fund rural schools has a double benefit.
    With that, I will turn the microphone over to Chief 
Kimball.
    [The prepared statement of Mr. Rey follows:]
 Prepared Statement of Mark Rey, Under Secretary for Natural Resources 
             and the Environment, Department of Agriculture
                                overview
    Mr. Chairman and members of the Committee, I appreciate the 
opportunity to discuss the President's fiscal year 2008 Budget for the 
Forest Service during today's hearing. I am pleased to join Gail 
Kimbell, newly appointed Chief of the Forest Service, at this hearing 
today.
    I will discuss two issues that relate to the 2008 Budget. First, I 
will address changes in the Wildland Fire account and associated 
issues. I will next address the need to provide further transitional 
assistance to rural counties through the proposed National Forest Land 
Adjustment for Rural Communities Act.
                             wildland fire
    The 2008 Budget proposes a total of $1.9 billion for activities 
associated with Wildland Fire Management, including a new appropriation 
for Wildland Fire Fighters. The events of the 2006 fire season make a 
compelling case for these strategic changes.
    On the heels of Hurricane Katrina, the 2005 fire season flowed 
seamlessly into that of 2006--without the respite normally provided by 
winter precipitation. From November through April, extreme low 
humidity, persistent drought conditions, and winds contributed to the 
ignition of fires through Texas, Oklahoma, Colorado, Missouri, and New 
Mexico. By late July, the wildland fire fighting community had entered 
Preparedness Level 5--the highest level of fire activity, during which 
several geographic areas are experiencing simultaneous major incidents. 
During 2006 the Forest Service was at Preparedness Level 5 from late 
July through late September, without intermission. Although the 2006 
fire season had one of the highest number of fire starts in a single 
day (548), an extraordinary number of lightning-caused fires (over 
16,000), and a record number of simultaneous large fires (affecting 
nearly every region in the country); it also resulted in significantly 
fewer dwellings and other structures destroyed--750 homes lost in 2006 
as compared to more than 4,500 lost in 2003.
    Despite many positive accomplishments, fire suppression 
expenditures topped $1.5 billion in 2006. Moreover, the agency has 
spent over $1 billion on fire suppression in 4 of the last 7 years. The 
increasing frequency of ``billion dollar'' fire-fighting years is 
driving up the 10 year average suppression cost figure, which is used 
to determine suppression funding levels. Congress has repeatedly 
expressed concerns about rising fire suppression costs. Large fire 
costs are a persistent challenge for the agency and threaten to 
compromise the achievement levels of other critical mission areas. In 
response, a number of key actions are underway in fiscal year 2007, and 
the 2008 Budget request makes additional significant proposals.
    The most significant actions underway in 2007 include:
    1. From Appropriate Management Response to Risk-Informed 
Response.--The Appropriate Management Response (AMR) was articulated in 
the 2001 update of the Federal Wildland Fire Management Policy. 
Further, the 2008 Budget reflects refinement of the concept of AMR 
toward a risk-informed fire suppression approach. This approach 
provides risk-informed fire protection by introducing the concept of 
managing wildland fire in relationship to the risk that the incident 
poses. If a wildland fire has potential benefits to natural resources 
and poses a relatively low risk to impact other valued assets, the fire 
would receive a lower intensity suppression effort. Conversely, if a 
fire incident is determined to pose high risk to property or community, 
high suppression efforts would be applied. The approach utilizes risk 
management and tools such as probability analysis and actuarial data to 
inform rigorous and systematic ways to reach decisions that allocate 
resources on the basis of risk posed by the wildfire and the strategy 
used by managers to address it. The Forest Service has developed a 
draft guidebook that presents a coherent strategy to implement this 
approach. DOI is reviewing this guidebook and will work with Forest 
Service on interagency implementation.
    2. Forest Service Chief's Principal Representative.--The Forest 
Service Chief will designate an individual with access to a support 
team to provide oversight on fires of national significance and 
assistance to local units and will collaborate with the DOI on DOI 
lands. The individual will be highly experienced in wildfire 
management, and the team will have knowledge and capability with 
decision-support tools. These changes will immediately provide for 
experienced decision-making that should reduce costs on large fires.
    3. National Shared Resources.--National resources such as smoke 
jumpers, hot shot crews and helicopters will be moved to areas and 
incidents based on Predictive Services and on Planning Levels. This 
will create a more centralized and flexible management of these 
response resources. Funding and decision-making from the national level 
will ensure consistency across regions, flexibility in the assignment 
of resources and eliminate geographic concentration of resources that 
impose costs in both time and money.
    4. Aviation Resource Cost Management.--Aviation resources will be 
managed more effectively to reduce their high cost. A full-time 
National helicopter coordinator will be selected to provide oversight 
for the assignment and positioning of helicopters. Helicopter 
management will be centralized as a national resource. The Forest 
Service will attempt to shift more to ``exclusive use'' versus ``call 
when needed'' contracts for helicopters. This will increase 
preparedness costs initially, but is expected to greatly reduce large 
fire suppression cost with potential saving of tens of millions of 
dollars per year. We will pursue longer term aviation contracts for all 
aviation resources with increased performance-based contracting. DOI 
also is pursuing strategies to reduce its costs.
    5. Initial Attack and Severity Funding.--Efforts will be made to 
maintain our initial attack success while reducing the dependence on 
severity funding. The Forest Service will require lower thresholds for 
the approval of severity funding to be elevated for approval by the 
Chief National Shared Resources will be pre-positioned whenever 
possible in geographic areas where fire risk is the greatest during the 
fire season. The Forest Service and DOI agencies will continue to 
submit a coordinated severity request so as to not duplicate effort or 
expense.
    In addition to the changes for 2007, the 2008 Budget proposes a 
separate appropriation for Wildland Firefighters. The Budget proposal 
moves funding for firefighters out of the Preparedness budget within 
Wildland Fire, and into a separate appropriation. There is no net 
program change as a result of this move. Importantly, this adds a 
higher degree of visibility and transparency to fire suppression 
activities and provides $220 million for hiring and training the 10,000 
firefighters necessary to ensure a successful fire season.
    The Wildland Fire account's Suppression line is funded at $911 
million, reflecting the updated 10-year average for total suppression 
costs as adjusted for inflation and includes indirect costs not charged 
to fire suppression in previous years but now required by Congress to 
be included in the account.
    The Budget funds Fire Preparedness at $349 million, which is a 
reduction of $87 million as compared to the fiscal year 2007 estimate 
when considering the strategic shifts and creation of the new Wildland 
Firefighter account.
    We expect that the management improvements implemented and underway 
will enable managers to be better prepared for wildfires; help managers 
to make better decisions during firefighting operations; and provide 
managers with the tools necessary to analyze, understand and manage 
fire suppression costs. While the factors of drought, fuels buildup in 
our forests and increasing development in fire prone areas have the 
potential to keep the number of incidents and total cost of wildfire 
suppression high for some time to come, we are confident in our 
strategy to address wildland fire suppression costs and are committed 
to action. We believe that the measures discussed today promise to 
expand efficiency and reduce suppression costs. We look forward to 
continued collaboration with our Federal, State, local, Tribal, and 
other non-Federal partners to address our shared goal of effectively 
managing wildfire suppression costs.
   continuing transitional support to rural communities through the 
       national forest land adjustment for rural communities act
    The Secure Rural Schools and Community Self-Determination act of 
2000 (SRS) (PL 106-393) was enacted to provide transitional assistance 
to rural counties affected by the decline in revenue from timber 
harvests in federal lands. Traditionally, these counties relied on a 
share of receipts from timber harvests to supplement local funding for 
school systems and roads. Funding from SRS has been used to support 
more than 4,400 rural schools and to help maintain county road systems. 
In addition SRS has authorized the establishment of over 55 Resource 
Advisory Committees (RAC) in 13 States, which has increased the level 
of interaction between the Forest Service, local governments, and 
citizens resulting in greater support and understanding of the agency's 
mission. RACs have implemented more than 4,500 resource projects on 
National Forests, Grasslands, and adjacent non-federal lands with a 
value from SRS funds and leveraged funds of more than $292 million.
    On September 30, 2006 the SRS authorization ended. The last payment 
under this authorization was made in December of 2006. The 
Administration continues to support a 1-year extension of the SRS Act 
with agreed-upon full offsets as an interim step. The Budget 
underscores the President's continuing commitment to states and 
counties impacted by the ongoing loss of receipts associated with lower 
timber harvests on Federal lands. The National Forest Land Adjustment 
for Rural communities Act is included in the FY 2008 President's Budget 
to fund transition payments targeted to the areas of greatest need, and 
to provide counties additional time before payments are phased-out. 
Under the proposal, half of land sales proceeds will be available to 
offset county payments and half will be available for national forest 
acquisition or habitat improvement in the states in which lands are 
sold. Counties benefit from four additional years of payments, and 
states receive an environmental benefit from exchanging land with low 
environmental values for lands with high environmental value.
    The National Forest Land Adjustment for Rural Communities Act would 
authorize a four-year extension of the funding formerly provided by 
SRS. The legislation would also provide conservation funding for 
National Forests and Grasslands. Sale of identified National Forest 
System lands--similar those lands described in the fiscal year 2007 
budget proposal would provide funding to replace that which SRS had 
provided. Our new legislation differs from our previous proposal by 
including additional provisions which allow for land sale receipts to 
also be used for the acquisition of land for the National Forest 
System, conservation education, improved access to public lands, 
wildlife and fish habitat improvement, and coverage of administrative 
costs of land sales and acquisition activities.
    This year's proposal addresses the concern that affected states 
would not receive financial benefit from the sale of federal lands 
within their borders. It does so by including a requirement that 50% of 
all land sale receipts be retained for conservation purposes within the 
State from which the receipts were derived.
    The legislation would authorize the Secretary to sell excess 
national forest land or interests in land that the Secretary determines 
to be both eligible for disposal and in the public interest. These 
parcels meet criteria identified in existing forest land management 
plans as potentially suitable for conveyance. Many of these lands are 
isolated from other contiguous National Forest System lands, and 
because of their location, size, or configuration are not efficiently 
managed as components of the National Forest System. Isolated tracts 
can be expensive to manage because of boundary management and 
encroachment resolution costs. The sales of these lands will not 
compromise the integrity of the National Forest System; instead, it 
will allow the agency to consolidate federal ownership and reduce 
management costs. Land sales would be limited to a list of lands 
identified by the Secretary. By selling lands that are inefficient to 
manage or have limited ecological value, and subsequently purchasing 
critical, environmentally sensitive lands; the Forest Service will 
maintain the integrity of the National Forest System, while funding 
payments under the Act in a fiscally responsible manner.
    Our proposal would authorize the Secretary to sell sufficient 
National Forest land to fund an $800 million dollar account. Under the 
legislation, 50 percent of receipts obtained from land sales would be 
used as a funding source to make SRS payments over a four year period 
with a gradual phase-out. The remaining 50 percent of receipts from 
land sales within a State would be used for conservation purposes.
    Funds from the land sales account would supplement payments to the 
states from National Forest and BLM timber receipts. For administrative 
purposes, the Secretary of Agriculture would also make the supplemental 
payments from this account for the Bureau of Land Management. Timber 
receipts are expected to rise over the next five years, which will help 
offset the payment phase-out.
    Finally, the legislation would authorize the establishment of a 
National Advisory Board to advise the Secretary on the land sales and 
the use of their proceeds. State governments will be encouraged to 
participate in formulating recommendations to the National Advisory 
Board for habitat improvement projects and land acquisition needs. By 
selling lands that are inefficient, isolated, or of limited-value and 
purchasing critical, environmentally sensitive lands, the Forest 
Service will maintain the integrity of the National Forest System while 
funding payments formerly provided by SRS.
    This concludes my statement, I would be happy to answer any 
questions that you may have.

           STATEMENT OF ABIGAIL KIMBALL, CHIEF, USDA 
                         FOREST SERVICE

    Ms. Kimball. Thank you, Mr. Chairman and I'll present an 
abbreviated version of my testimony and request that my full 
statement be entered into the record.
    The Chairman. That will be done, as well as Secretary 
Rey's.
    Ms. Kimball. Thank you. Mr. Chairman and members of the 
committee, it is a great privilege to be here today to discuss 
the President's budget for the Forest Service in fiscal year 
2008. Let me also say, having been Chief of the Forest Service 
for almost a month, I am deeply honored to have this 
opportunity. I am joined today by Lenice Lago, who is our 
Budget Director for the U.S. Forest Service. Let me also 
express my appreciation in advance to you, Mr. Chairman, and 
members of the committee, for working with the Forest Service 
and me during this transition. I have worked for the Forest 
Service for over 30 years. I started as a seasonal employee, 
went on to serve as Forester, Planner, District Ranger, Forest 
Supervisor, Regional Forester and Associate Deputy Chief, among 
other positions. I've worked in Oregon, Washington, Alaska, 
Wyoming, Colorado, Montana and Idaho and in the Washington 
Office here in Washington, DC.
    Equipped with these experiences, I am eager to lead the 
Forest Service into its second century of service and I am 
humbled by the duties entrusted in me as Chief.
    In its second century of service, the Forest Service faces 
diverse challenges. These include restoring fire adapted 
forests to more resilient conditions, providing natural 
resource raw material to the American public, providing 
sustainable recreation opportunities, mitigating the loss of 
open space, addressing the spread of invasive species, 
restoring watershed health and more, all during a period of 
rapid fragmentation, intensive development and landscape scale 
change.
    These challenges occur at a time when our Nation is 
pursuing deficit reduction goals. The Forest Service is 
responding, adapting and modernizing in response to the complex 
and evolving environment in which we operate.
    This budget request must be viewed in the larger context of 
the overall Federal budget in which is presented. Like other 
non-defense, domestic, discretionary programs, the Forest 
Service faces a constrained budget. The fiscal year 2008 
President's budget request for the Forest Service is just over 
$4.1 billion, which is approximately the same level of funding 
as fiscal year 2006 and a modest reduction below fiscal year 
2007.
    However, within that total are some important shifts. I'll 
briefly discuss three emphasis items and we can discuss other 
programs during the question and answer period.
    Within wildland fire, we have increased the request for 
fire suppression by $160 million over last year. This is due to 
the request for fire suppression being based on the 10-year 
rolling average cost of fire suppression and the fact that last 
year's fire season cost a record $1.5 billion.
    The 2008 budget responds to the escalating cost of fire by 
refining the concept of appropriate management response toward 
a risk-informed fire suppression approach. Under the risk-
informed approach, wildland fire will be managed on a priority 
basis as determined by considering whether private property, 
infrastructure and human value is most at risk and which 
resource benefits are associated with the incident. We will 
increase decision support and new tools for this refined 
approach.
    The 2008 budget maintains funding throughout the programs 
that support the Health Forest Initiative, including hazardous 
fuels, forest products and applied fire science and serve 
cultural research. At least 40 percent of hazardous fuels 
funding will be used on projects that contribute to the goal of 
improving condition class on at least 250,000 acres by the end 
of the fiscal year through the use of the Hazardous Fuel 
Reduction Act and the Healthy Forest Restoration Act and the 
Healthy Forest Initiative authorities. I thank you again for 
the authorities granted to us.
    In addition, the budget supports a hazardous fuels 
reduction target of 3 million acres, a timber sales target of 
3.5 billion board feet and fully funds the Northwest Forest 
Plan.
    Law enforcement is also increased in this budget, 
recognizing the increase of violent activity and crime across 
the National Forest System, particularly along the Arizona 
border, in California with the drug trafficking organizations, 
and in other areas of the National Forest System. We've 
requested an increase of $13 million.
    In order to fund these high priority programs, the budget 
makes hard tradeoffs to other programs. Moreover, efficiencies 
gained through the centralization of business operations, 
planning rule revisions and renewed focus on collaborative 
management will help offset reductions under the fiscal year 
2008 budget request.
    Thank you for this opportunity to discuss the President's 
budget. I look forward to working with all of you to implement 
our fiscal year 2008 program and I'm happy to answer any 
questions you may have.
    [The prepared statement of Ms. Kimball follows:]
   Prepared Statement of Abigail Kimbell, Chief, USDA Forest Service
    Mr. Chairman and Members of the Committee, it is a great privilege 
to be here today to discuss the President's budget for the Forest 
Service in fiscal year 2008. Let me also say, having been Chief of the 
Forest Service for just a month, I am deeply honored to have this 
opportunity.
    First, I want to express my gratitude to Secretary Johanns for his 
confidence in me, and to thank the dedicated, hard-working employees of 
the Forest Service for their support and encouragement. Let me also 
express my appreciation in advance to you Mr. Chairman and Members of 
the Committee for working with the Forest Service and me during this 
transition.
    I will begin by saying a few words about myself and my long-time 
commitment to the Forest Service. I have worked in the Forest Service 
for more than 30 years. I started as a seasonal employee and went on to 
serve as Forester, Planner, District Ranger, Forest Supervisor, 
Regional Forester, and Associate Deputy Chief, among other positions. I 
have worked in Oregon, Washington, Colorado, Alaska, Wyoming, Montana, 
and Washington, DC. Equipped with these experiences, I am eager to lead 
the Forest Service into its second century of service, and am humbled 
by the duties entrusted in me as Chief.
    For those new members who may be unfamiliar with our agency, the 
U.S. Forest Service works to sustain the health, diversity, and 
productivity of the Nation's 193 million acres of national forests and 
grasslands. We not only steward the National Forest System, but also 
provide states, Tribes, and private forest landowners with technical 
and financial assistance. Moreover, we are the world's largest forestry 
research organization.
    In its second century of service, the Forest Service faces diverse 
challenges. These include restoring fire-adapted forests to more 
resilient conditions, providing natural resource raw materials to the 
American public, providing sustainable recreation opportunities, 
mitigating the loss of open space, addressing the spread of invasive 
species, restoring watershed health, and more--all during a period of 
rapid fragmentation, intensive development, and landscape-scale change. 
These challenges occur at a time when our nation is pursuing deficit 
reduction goals. The Forest Service is responding, adapting, and 
modernizing in response to the complex and evolving environment in 
which we operate.
    Before I begin my testimony on the 2008 Budget however, I would 
like to reflect on Chief Bosworth's leadership and some of his many 
achievements during these past six years.
                the forest service under chief bosworth
    When Chief Bosworth took the helm of the Forest Service, the 
agency's finances were in disarray. The General Accountability Office 
had listed the Forest Service among agencies at high risk for waste, 
fraud, and abuse. Under Dale Bosworth's leadership, the agency 
progressed from being ``in receivership,'' to achieving five 
consecutive clean audit opinions from the USDA Office of the Inspector 
General. Chief Bosworth reduced overhead costs, reorganized the Deputy 
areas by eliminating two Deputy Chief positions and reducing staff, and 
guided the agency through the centralization and reengineering of its 
business processes whose net cost reductions will approach $100 million 
by fiscal year 2008. The Forest Service's improved business policies, 
processes, and organization have enhanced internal controls, eliminated 
duplication, and created accurate and complete financial data. Under 
the President's Healthy Forests Initiative, Chief Bosworth oversaw 
hazardous fuels reduction on more than 8.5 million acres. Further, the 
Chief responded with confidence and composure to such momentous 
challenges as September 11th; the Space Shuttle Columbia disaster; 
Hurricanes Katrina and Rita; and a period of wildland fire frequency 
and severity heretofore unprecedented in the modern era. Chief Bosworth 
skillfully ushered the Forest Service into the 21st Century's complex 
and demanding environment.
                 forest service fiscal year 2008 budget
    This budget request must be viewed in the larger context of the 
overall federal budget in which it is presented. Like other non-defense 
domestic discretionary programs, the Forest Service faces a constrained 
budget. And the results of the Administration's policies on economic 
growth and fiscal restraint include cutting the deficit in half, three 
years sooner than originally predicted. The fiscal year 2008 
President's Budget request for the Forest Service is $4.127 billion, 
which is approximately the same level of funding as fiscal year 2006 
and a modest reduction below fiscal year 2007. However, within that 
total are some important shifts: the budget makes important changes to 
the Wildland Fire account, maintains funding for Healthy Forests 
including the commitment to fully fund the Northwest Forest Plan to 
provide 800 million board feet of timber, and emphasizes public health 
and safety by proposing a significant increase in the Law Enforcement 
Operations budget. These increases are offset by reductions in other 
programs so that wider administration goals of supporting the Global 
War on Terror and sustaining the momentum of the economic recovery can 
continue. The President's Budget addresses reductions by continuing or 
implementing new cost saving measures and by enhancing efficiencies and 
streamlining management and organization.
    Wildland Fire.--During the 2006 fire season the United States 
experienced more than 95,000 wildfire ignitions, and more than 9.9 
million acres burned. Of those 9.9 million acres burned, approximately 
5 million acres were on Federal lands and the balance on non-Federal 
lands. The Forest Service continued its excellent track record in 
protecting lives, property, and the environment. However, as occurred 
in 4 of the last 7 years, in 2006 the Forest Service spent over $1 
billion for suppression activities--a record $1.5 billion. The 
increasing frequency of ``billion dollar'' fire-fighting years is 
driving up the 10 year average suppression cost figure, which is used 
to determine annual suppression funding levels.
    The 2008 Budget responds to escalating fire costs in three 
important ways. First, the budget provides funding for suppression at 
the 10 year average level, adjusted for inflation. The 2008 Budget 
funds Suppression at $911 million--a 23 percent increase over 2007 
levels of $741 million. Further, the 2008 Budget reflects refinement of 
the concept of ``appropriate management response'' toward a risk-
informed fire suppression approach. Under the risk-informed approach, 
wildland fire will be managed on a priority basis as determined by 
considering private property, infrastructure, and human values most at-
risk and resource benefits associated with the incident. In 2008 we 
will increase our decision support for this refined approach. New 
tools, including improved fire behavior monitoring and prediction, and 
costs and benefits of alternative suppression strategies will help 
managers decide how to respond to fires. In addition, the 2008 Budget 
pursues a more efficient and precise budget structure by establishing a 
separate account for ``firefighter'' expenditures. The 2008 Budget 
requests $220 million for this new appropriation, which will fund 
salary and training for 10,000 firefighters and 67 type I hot shot 
crews.
    Healthy Forests.--The Healthy Forests Initiative (HFI) was launched 
in 2002 to reduce administrative process delays to implementing 
projects, and Congress passed the Healthy Forests Restoration Act 
(HFRA) in 2003. The Act provides improved statutory processes for 
hazardous fuel reduction projects on certain types of at-risk National 
Forest System and Bureau of Land Management lands and also provides 
other authorities and direction to help reduce hazardous fuels and 
restore healthy forest and rangeland conditions on lands of all 
ownerships. The 2008 Budget maintains funding throughout the programs 
that support the Healthy Forests Initiative, including Hazardous Fuels, 
Forest Products, and applied Fire Science and Silvicultural Research. 
At least 40 percent of hazardous fuels funding will be used on projects 
that contribute to the goal of improving condition class on at least 
250,000 acres by the end of the fiscal year through the use of HFRA and 
HFI authorities. In addition, the Budget supports a hazardous fuels 
reduction target of 3 million acres, a timber sales target of 3.5 
billion board feet, and fully funds the Northwest Forest Plan, 
including a significant increase in Capital Improvement and Maintenance 
(Roads) to maintain the road infrastructure needed to support Northwest 
Forest Plan timber sales.
    Law Enforcement Operations.--The 2008 Budget proposes a $13 million 
increase in Law Enforcement Operations. Recent years have seen a 
significant increase in crime on National Forests, causing resource 
impacts and increasing risks to public and employee safety. Agency law 
enforcement officers are increasingly responding to violent crimes, 
including rape, homicide, domestic disputes, assault, robbery, drug 
manufacturing and trafficking, and other serious felony crimes. In 
addition, law enforcement officers routinely respond to traffic 
accidents, search and rescue, medical or emergency assistance, 
hazardous materials spills, domestic terrorist activity, large group 
events and gang activity. In addition to reducing the impacts on 
natural resources and avoiding the associated costs of restoration, the 
requested funding increase will enable the Forest Service to maintain 
public and employee security and reduce illegal occupancy of National 
Forests.
    In order to fund these high priority programs, the Budget makes 
hard tradeoffs to other programs. Moreover, efficiencies gained through 
the centralization of Business Operations, Planning Rule revisions, and 
renewed focus on collaborative management will help offset reductions 
under the fiscal year 2008 Budget request. In fiscal year 2008 and 
fiscal year 2009, the agency will further its efforts to optimize 
organizational efficiency by restructuring leadership and program 
management functions at its National and Regional Offices. In order to 
provide additional funding for on-the-ground performance, many 
headquarters and regional activities will be consolidated on a 
centralized basis, and appropriate program management functions will be 
zoned across multiple regions. The Forest Service will realize 
personnel cost decreases of approximately 25 percent in National and 
Regional Office operations by the end of fiscal year 2009. An executive 
Steering team, led by Eastern Regional Forester Randy Moore, has been 
appointed to oversee the reorganization effort.
    I will now discuss program changes of the Research, State and 
Private Forestry, National Forest System, Capital Improvement and 
Maintenance, and Land Acquisition accounts.
                      forest & rangeland research
    The Forest Service Research Program is a globally recognized leader 
at exploring the fundamental ecological, biological, social, and 
economic questions and issues challenging natural resource management 
and conservation in the modern era. Not only do Forest Service research 
efforts inform Forest Service management, conservation, education, and 
outreach activities; but importantly, our Research programs inform the 
conservation activities of the global community.
    The 2008 Budget funds Research at $263 million. This is a 7 percent 
decrease from the 2007 funding estimate of $280 million. The budget 
eliminates funding for un-requested Congressional earmarks and employs 
investment criteria to ensure alignment between research projects and 
strategic priorities. Funding priorities within the request include 
continued research to improve large fire decision support, particularly 
with respect to improving managers' ability to predict probability of 
fire occurrence and spread related to values at risk, long-term 
integrated planning, successful collaboration with communities, and 
further development of improved tools for integrated risk analysis. The 
invasive species program area includes new funding for research on 
biological control of invasive weeds. To help meet the Nation's energy 
needs there is an increase of $1.3 million to enhance research on wood-
based bio-fuels development and conversion processes, bio-refinery 
applications, energy efficient housing, and processing and 
manufacturing energy reduction, life cycle analysis of wood, and 
marketing analysis for energy and bio-based products. The 2008 Budget 
also retains support for Forest Inventory and Analysis, which is of 
great importance in the context of tracking today's dramatic ecological 
changes and their effects on forest resources.
    Forest Service Research and Development has focused on 
strengthening the conformance of its research program with the 
President's Management Agenda criteria for Federal research agencies: 
quality, relevance and performance. Research has identified 7 Strategic 
Program Areas (SPA), and developed strategic plans for each one. 
Further, Research plans to conduct national external panel reviews of 
each SPA, as well as reviews of each Research Station's alignment with 
the SPAs. These include periodic peer review and evaluation of all 
scientist positions through the Research Panel Process, peer review of 
proposed study plans and manuscripts for publication, and periodic 
updating of station quality assurance and quality control plans. During 
2006, a restructuring of the Research headquarters staff was initiated 
to improve responsiveness, quality, relevance, performance and 
efficiency.
                        state & private forestry
    The State and Private Forestry program is a critical component of 
the Forest Service's conservation mission in that it connects the 
agency's research and federal public lands-based programs to those of 
states and private individuals and entities. State and Private Forestry 
programs work across boundaries to conserve forested landscapes and 
open spaces, and protect the ecological services they provide. State 
and Private Forestry programs assist successful conservation of the 
nation's natural resources by enhancing cooperation between 
individuals, non-governmental organizations, states, and the federal 
government.
    The 2008 Budget funds State and Private Forestry at $203 million, 
an 11 percent decrease from 2007 funding levels of $229 million. 
Funding will be focused on priority activities in the Forest Health and 
Cooperative Fire programs.
    The Forest Health program will receive more than $90 million and 
provide for treatments of invasive and native pests on more than 
600,000 acres of priority forest and rangelands. When combined with 
funds received under the National Fire Plan, the total acreage will 
increase by almost one-third and will yield close to 800,000 acres of 
treatments. Attention will be placed on priority pests such as the 
southern pine beetle, the western bark beetle and slowing the spread of 
gypsy moth. In fiscal year 2008, the Forest Health program will 
emphasize increased early survey and monitoring efforts against 
invasive species. These activities are important and integral to the 
overall program--increasing the agency's ability to prevent and detect 
problems early is a more cost-effective way to deal with invasives than 
treatments after wide spread infestations have occurred.
    The Cooperative Fire program will receive more than $42 million and 
will help more than 9,800 communities protect themselves from 
disastrous wildland fires. The majority of funds allow the Forest 
Service to provide financial assistance to state and local fire 
agencies, which in turn use the grant monies to develop and implement 
cooperative wildland fire preparedness programs and conduct hazardous 
fuel treatments around communities. A very successful program funded 
under the Cooperative Fire activity is Firewise, which emphasizes 
individual responsibility for fire hazard mitigation on community and 
private property. The program provides education and support to 
community leaders, and assistance with mitigating wildland fire hazards 
around structures. Moreover, the program leverages $4 dollars in local 
matching funds for every federal dollar spent, allowing the program to 
assist more communities.
    Finally, more than $66 million in the State and Private Forestry 
program will fund priority Cooperative Forestry programs including the 
Forest Legacy Program, which will receive $29 million. These funds will 
be used on 14 projects and which are expected to conserve 97,000 acres 
of important forest resources. To date, more than 1.4 million acres of 
environmentally important private lands have been protected through the 
Forest Legacy Program and with more than 429 million acres of the 
Nation's forest held in private ownership this program continues to be 
important to prevent critical forest lands from being converted or 
fragmented.
    The balance of funding in the Cooperative Forestry program will 
fund Forest Stewardship and Urban and Community Forestry activities. 
All State and Private programs will focus on national goals to produce 
public benefit outcomes. State-developed resource plans will identify 
priority response to national goals. This approach is designed to 
connect with all ownerships in a collective effort to achieve healthy 
forest objectives and protect human communities from wildland fire.
                 national forest system appropriations
    The National Forest System account provides funds for the 
stewardship and management of National Forests and Grasslands. The 2008 
Budget requests $1.344 billion for this account, which is a net 
programmatic reduction of $67 million or 5 percent from the fiscal year 
2007 estimate. This decrease from prior year levels reflects greater 
efficiencies gained through organizational restructuring of leadership 
and program management functions at the National and Regional Offices. 
In order to provide additional funding for on-the-ground performance, 
many headquarters and regional activities will be consolidated on a 
centralized basis, and appropriate program management functions will be 
zoned across multiple regions. Moreover, efficiencies gained through 
the centralization of Business Operations, Planning Rule revisions, and 
renewed focus on collaborative management will help offset reductions 
under the fiscal year 2008 Budget.
    As discussed previously, the fiscal year 2008 Budget supports full 
funding for the Northwest Forest Plan and emphasizes pubic safety. 
Specifically, the National Forest System 2008 Budget proposes $319 
million for Forest Products, an increase of 5 percent. Funds allow for 
the continued full implementation of the Northwest Forest Plan and 
support an overall timber sales target of 3.5 billion board feet, 
including 800 million board feet from the Northwest Forest Plan. The 
Budget also proposes an increase of $13 million to Law Enforcement for 
a total of $124 million. The increased funding will be used to hire, 
train, and equip 47 new law enforcement officers and special agents. 
Increased visibility of law enforcement will improve public and 
employee safety and address foreign drug trafficking organizations on 
the National Forests.
    The 2008 Budget proposes to hold funding in Grazing Management at 
prior year levels for a total of $47 million. Maintaining this level 
will enable the Agency to comply with the Rescissions Act of 1995 by 
completing the backlog of NEPA-based environmental analysis.
    Funds are available to other programs in the National Forest System 
account to address highest priority needs. The 2008 Budget proposes 
funding for Land Management Planning at $53 million, a decrease of 6 
percent. Funds will be used to support work to complete 16 Land 
Management Plan revisions and continue work of another 16 plan 
revisions, all of which are being developed using the new Planning 
Rule. The fiscal year 2008 Budget also proposes $146 million for 
Inventory and Monitoring programs, a decrease of 10 percent. Funds will 
focus on forest plan monitoring and establishing Environmental 
Management Systems on 50 National Forest units, which completes the 
requirement of the 2005 Planning Rule. Environmental Management Systems 
are a comprehensive approach to improving the management of 
environmental issues and performance on individual units.
    The 2008 Budget proposes funding for Recreation, Heritage, and 
Wilderness at $231 million, a decrease of 9 percent. In fiscal year 
2008, the agency will continue to emphasize implementation of the 
travel management rule in order to address issues of unmanaged 
recreation, visitor safety and resource protection. By fiscal year end, 
the agency will have 48 percent of National Forest System lands covered 
by travel plans. Program funds will permit continued operation of 
recreation sites, although some reduction in seasons and hours for 
visitor information services may occur in some locations. National 
Forests are currently undertaking a process to analyze their recreation 
facilities and evaluate the future needs of the recreating public. The 
process, the Recreation Site Facility Master Planning, is an analysis 
tool, to encourage dialogue amongst a variety of interested communities 
on the changing demands for recreation facilities on national forests 
and what options may exist to respond to those changes.
    The recreation program will continue to strengthen relationships 
with private, volunteer-based, and nonprofit organizations to ensure 
some capacity levels are maintained and more particular to make 
programs and services relevant to youth in diverse and underserved 
populations.
    The fiscal year 2008 President's Budget requests $71 million for 
Minerals and Geology Management program, a decrease of 14 percent. The 
energy component of the program will focus on increasing opportunities 
for environmentally sensitive development and supply of oil and gas, 
coal, and geothermal resources from Federal lands in support of the 
Energy Policy Act of 2005. Funding levels to support environmental 
compliance and environmental restoration will continue at prior year 
levels to ensure required audits are continued and to focus on cleaning 
up publicly accessible abandoned mines and other contaminated sites in 
high priority watersheds.
    The budget also proposes funding for Wildlife and Fisheries 
Management at $118 million, a decrease of 8 percent, and for Vegetation 
and Watershed Management at $154 million, a program decrease of 12 
percent. Focus in the wildlife and fisheries program will be on 
improving fish and aquatic passage, recovery of the Columbia basin 
salmon, and on-going recovery efforts of other species including the 
Bighorn Sheep.
    In addition to efficiencies garnered through organizational 
alignment and greater use of the new Planning Rule, the Forest Service 
will continue to achieve efficiencies by centralizing Business 
Operations, utilizing email and video conferencing to lower travel 
costs, realigning the Agency, and will see these efficiencies and 
reduced costs continue over time. The net result is to maintain our 
foremost commitment to the land and focus funding on where the work 
gets done.
                   capital improvement & maintenance
    The Capital Improvement & Maintenance Program provides for, and 
maintains, the infrastructure for many Forest Service programs 
including; the transportation networks upon which many of our 
management operations, projects, and users depend; the recreational 
infrastructure, including trails that serve many diverse populations; 
and facilities that house Forest Service employees.
    The 2008 Budget funds Capital Improvement & Maintenance at $422.5 
million, a net programmatic increase of $15 million. To support the 
goal of selling 3.5 billion board feet of timber, the 2008 Budget 
requests an additional $17 million for Road Improvement and 
Maintenance. In addition to this request, the Forest Service will 
continue to receive revenues from sites conveyed under authorities 
provided by the Facility Realignment and Enhancement Act, which has to 
date provided $34 million in receipts to convey unneeded administrative 
sites and retain the proceeds for building maintenance, rehabilitation, 
and construction.
                            land acquisition
    Land covered by urban areas has more than doubled over the last 40 
years, and more than 44 million acres of private forests are at-risk of 
being developed by 2030. The Land Acquisition account enables the 
Forest Service to perennially stay abreast of, and act upon, the 
changing land-use patterns, demographic trends, and ecological changes. 
The Land Acquisition program allows us to pursue landscape 
connectivity, by purchasing in-holdings and keystone habitat parcels, 
and to manage the national forests as ecosystems rather than simply as 
real estate.
    The 2008 Budget funds Land Acquisitions at $16.99 million. This 
includes $8 million to purchase land and $7.7 million for acquisition 
management. The funding will allow us to move forward with 7 high 
priority acquisitions. The funding request continues a trend of 
declining budgets for land acquisition. However, the Budget also 
contains a legislative proposal that permits the Forest Service to 
retain upwards of $400 million in land sales for acquisition of 
national forest lands. The parcels to be sold have already been 
identified as suitable for sale or exchange because they are isolated 
or inefficient to manage. Lands with high environmental value will not 
be offered for sale, while acquisitions would focus on parcels that 
enhance the environmental integrity of our National Forests. Given the 
importance of maintaining assets already in federal ownership, the 
Budget strikes a good balance with the need to acquire and preserve 
special places.
                               conclusion
    Priority forest management issues such as reducing hazardous fuels 
in the Wildland Urban Interface and prevention of property destruction 
by catastrophic wildfires will be increasingly integrated with other 
pressing policy issues, including sequestering carbon, preserving open 
space, improving watershed health, and other mission-driven goals. We 
are addressing the costs of wildland fire suppression to mitigate 
constraints on other Forest Service programs. Our risk-based 
suppression approach and Healthy Forests Initiative fuels reduction 
work--much like our Business Operations centralization and 
collaborative management efforts--will reap tremendous mid- and long-
term efficiencies in the contexts of agency budgets and reducing risk 
to human communities posed by wildland fire. The 2008 Budget reflects 
the President's commitment to providing the critical resources needed 
for our Nation's highest priorities. The 2008 Budget also responds to 
the national need for deficit reduction while preparing the Forest 
Service for a new, more collaborative, era of natural resource 
management. With this Budget, the Forest Service will continue to 
identify and support more efficient and effective methods of pursuing 
its mission. This will be accomplished through increased collaboration, 
the use of legislative authorities, expanded program efficiencies, and 
improved organizational and financial management. Through these efforts 
the Forest Service will continue to sustain the health and productivity 
of the Nation's forests and grasslands.
    Thank you for this opportunity to discuss the President's Budget. I 
look forward to working with you to implement our fiscal year 2008 
program, and I'm happy to answer any questions that you may have.

    The Chairman. Thank you very much. We'll just do 5-minute 
rounds. Let me start and ask about an issue that Senator 
Domenici raised in his opening statement. This is on the 
funding for the Valles Caldara. Under the continuing resolution 
that we just passed, the administration has broad discretion as 
to what level of funding it is going to provide in the 
remainder of 2007 for the Valles Caldara. Have you settled on 
what level of funding is going to be provided, Secretary Rey?
    Mr. Rey. Yeah, we met with some of the officers of the 
trust and they asked for $3.5 million and that's what we're 
going to fund them at.
    The Chairman. Three point five million dollars, he 
indicated, and we appreciate that. A concern that I have is I 
think the one Senator Domenici also expressed, and that is that 
in the 2008 budget, which we've been given, the request is for 
$850,000. The $3.5 million is a much more realistic figure for 
what is needed in order to maintain that size property and do 
what is needed there. Why is it that the administration is 
proposing that kind of a major cut in 2008?
    Mr. Rey. That's actually not a cut from our 2007 
President's request. I think we requested about that level, 
give or take a few thousand dollars in 2007. The slight 
decrease from 2007 request is a reflection of the fact that 
they've been able to increase their receipts slightly.
    Generally speaking, we're eager to see the trustees work 
toward making good on the commitment to eventually become self-
sustaining. We think that objective is benefited by the dialog 
we will have with you during the appropriations process. They 
have made some progress, to their credit. They've fallen behind 
in some areas, in some cases, for reasons that are not wholly 
their fault. They're making less money on hunting today than 
the Dunigan family made when the Dunigans owned this as private 
land. That's because the State of New Mexico, Department of 
Fish and Game stepped in upon the change of the land status and 
limited the number of high- end hunting permits that the trust 
could provide, arguing that these were now public lands and 
that they were therefore, more subject to the limitations that 
the State Fish and Game agency wanted to impose.
    Now, that's great if you are a New Mexico resident. It 
means that you have access to more trophy elk than you did 
before when these were private lands, where public hunting was 
regulated by a lottery system that the Dunigans controlled at a 
higher premium. But it means that the trust is actually making 
less money now, not more than was the case under--when the land 
was privately owned. We look at what the trust is spending per 
acre today, to manage these lands as compared to the 
surrounding national forest. The trust is spending $42.30 per 
acre to manage these lands. The national forest surrounding it 
is spending an average of $17.87 per acre to manage these lands 
and we're picking up all their fire suppression costs.
    So the progress that was envisioned in the original 
legislation is very slow in coming and I fear it probably won't 
come at all unless we have these kinds of conversations during 
the appropriations process. I'm hopeful that the trust is 
successful because I don't frankly want to have to assume the 
full responsibility of managing this land if it's not. But at 
least right now, their progress has been significant toward 
hitting that long-term goal.
    Now maybe we ought to reassess that and maybe that goal was 
unrealistic. Maybe we ought to manage this more like we do the 
Presidio Trust, which is a separate line in the Interior and 
related agencies' budget, not coming out of the budget at any 
of the other Interior agencies. Then let the trust stand on its 
own before Congress without us as an intermediary, saying what 
they are doing is good, bad or indifferent--because frankly, 
our role is not to do that. It's just to point out that we are 
where we're at.
    The Chairman. Let me just ask one more question because my 
time is just about expired here. Regarding county payments, 
your proposal is to phaseout the program over 4 years, as I 
understand your testimony.
    Mr. Rey. It would be over 5 years, if you add 2007 into the 
mix--2007 through 2011.
    The Chairman. OK. And the proposal is that total funding 
for the program would be reduced about 30 percent in 2008 from 
2007 levels?
    Mr. Rey. A little--that's about right. We can talk about 
the----
    The Chairman. Another 30 percent in 2009, then 20 percent 
the following year and about 10 percent the last year, is that 
it?
    Mr. Rey. That's about the glide path we proposed, but 
that's something we would be happy to work with you on.
    The Chairman. Why is it your view that the program should 
be phased out?
    Mr. Rey. Well, the program that was initially drafted in 
2000 was a transition measure, a transitory measure to give the 
counties time to adjust to the change in the economies of many 
of these western States associated with the reduction of the 
Timber Sale Program and the increase in other activities. Six 
years later, some counties have made the transition and many 
haven't. When we introduced our proposal last year, what we 
said was, we thought that an additional one-time re-
authorization was justified to assist where the transition 
hadn't been completed, but we are keen in seeing that 
transition eventually be completed. We're turning to the 
original 1908 agreement where we shared a quarter of our gross 
receipts with the counties, whatever those receipts are, as a 
result of our management.
    The Chairman. Senator Domenici.
    Senator Domenici. Thank you very much, Mr. Chairman. Mr. 
Rey, I think the discussion we've had with reference to Valles 
Caldara is good. I think sooner or later, we're going to have 
to have a sit-down with the State of New Mexico's appropriate 
officials and talk about such things as a limitation on fees 
from hunting, the restriction that is being imposed under 
current interpretation of the statute and see what we can do. 
There is no question that we have good seasons and bad ones for 
elk hunting but this ranch, if in the hands of the private 
sector, would yield far more money than we're able to have 
garnered because of interpretation of the limitations imposed 
by this State statute.
    Now, the other reason they need some money to get going is 
that it's a beautiful place but Congress has determined that 
the public ought to use it as compared with the forest, if you 
just had the Forest Service up there. I mean, it's a big piece 
of Forest Service property. In the meantime, though, whoever's 
running it has to determine what to give the people so they can 
use it. Interestingly enough, some of that costs some money. 
Roads, buildings and the like--there's no question that people 
want to see that place, be on it and use it. When the trust has 
very little money, it can offer little or no amenities to make 
money.
    Now we really do appreciate your coming down on the side of 
$3.5, which was the amount we had appropriated. That was about 
to disappear because of the fiasco that we've had here, is that 
correct? So we weren't too far off when they came down with a 
$3.5, as what they need to move ahead.
    Now I'll move to one other question of prior liability. 
Secretary, at our last hearing at the end of January, you and I 
spoke about two or three things Congress could do legislatively 
to address the issue of liability insurance for wildland 
firefighters. At that time, you committed to getting us some 
concepts in legislative language regarding this issue. When can 
we expect these concepts and legislative language from you, if 
some are forthcoming?
    Mr. Rey. In response to the drafting request that your 
staff made, we should be able to get something to you before 
the end of the week.
    Senator Domenici. And sir, can we talk about what it is 
going to look like?
    Mr. Rey. It will be very straightforward. It will be 
designed to address the two things that we talked about at the 
January 30 hearing. First to extend the eligibility for our 
Federal firefighters to buy liability insurance at a specified 
rate that other first responders can acquire it, so that they 
are insured for liability purposes. Then second, to separate 
our internal fire investigations--which are accident 
investigations designed to learn from, for future safety 
purposes--from the existing investigation that is required by 
the statute passed by the committee two Congresses ago by our 
Inspector General, which could subject anybody involved in the 
investigation to criminal sanctions. So what we propose in that 
second change is to do something very comparable to the way the 
military runs its accident investigations, and separating the 
two, so that cooperating with the accident investigation 
doesn't automatically expose you to criminal liability.
    Senator Domenici. I want to thank you and you get that 
language ready--what will it do to that issue of insuring and 
making insurance available to firefighters? Would you just talk 
a minute for the record?
    Mr. Rey. Sure. I think the ability to purchase insurance 
will alleviate the concern of many of our rank and file 
supervisors that they are exposed to liability on their own, 
with no protection. The second change won't necessarily 
reassure our firefighters, but it will allow us to conduct 
accident investigations in an open fashion and try to get as 
much information as possible to discern the cause of an 
accident. If there is a remedy, we can apply that remedy later 
and do that in a way that doesn't make that information 
immediately accessible to a separate, independent investigator, 
who by statute is bound to turn his investigatory work over to 
a U.S. attorney if he sees any evidence of criminal negligence. 
The reason in the 2002 legislation to have a separate 
investigation by our Inspector General was to ensure that there 
was an independent investigation in every instance of fire 
fatality. Interestingly, that didn't apply to the Department of 
the Interior or the States; just the Forest Service. But be 
that as it may, that was a reflection on the fact that there 
was some uneasiness that the Forest Service's internal 
investigation would be sufficiently independent. Well, if 
that's the case, then there shouldn't be any reasonable 
objection to letting us insulate the information acquired in 
that internal investigation from a potential criminal charge. 
Failing to do that causes everyone who is going to be 
interrogated either by RIG or interviewed in our internal 
investigation or both, to assume that they are both the same 
and to decide that as individuals, they should apply the same 
standard of prudence in both cases and not say anything unless 
they are advised by an attorney to cooperate. That's not an 
unreasonable position to take if you're facing criminal 
liability for a decision that you make or witness in the call 
of duty under extreme circumstances. But if that stands 
unchanged, it will impede the quality of our accident 
investigations and inhibit our ability to get people to speak 
freely about what exactly happened, so that we have a basis for 
evaluating whether it's a problem that can be fixed.
    The Chairman. Senator Salazar.
    Senator Salazar. Thank you very much, Chairman Bingaman and 
Ranking Member Domenici, for holding this hearing. Let me just 
start out by saying first to you, Chief Kimball, 
congratulations on being the Chief and knowing and recognizing 
that you are the first female Chief of the Forest Service in 
our history. I think it is an important milestone, so my 
congratulations to you. And welcome back, Under Secretary Rey.
    Let me just make a comment, and then I have two questions, 
and we'll use up my 5 minutes in that way. First of all, I 
think for most of us who sit on this committee, with the 
exception of probably Vermont, the Federal Government really is 
a big dog in our State. And I look at Colorado--we have 11 
national forests and two national grasslands. Twenty percent of 
my State is owned by the Federal Government and the Forest 
Service, so these are issues which I think those of us in the 
West, regardless of our party, are very interested in. We 
recognize the huge impact that your land holdings have on our 
States, so when we're explaining taxes or other kinds of issues 
that are being discussed here, they'll always be incredibly 
important for all of us.
    My first question to you has to do with funding. First, 
overall, and then second, with respect to Region 2. I don't 
frankly understand how it is that we can move forward with the 
continued decline in funding for the Forest Service in the way 
that we have. When you look at the numbers that I have, it 
appears that we are doing a $64.5 million reduction from last 
year's budget, from the President's budget overall. When you 
compare the President's budget to fiscal year 2001, some 6 
years ago, it's a 7 percent reduction. And yet for the last 2 
years that I've sat on this Committee, I've heard the great 
concerns that we're not funding the Forest Service adequately. 
When you look at the region--U.S. Forest Service Region 2, from 
which we have a number of colleagues on this Committee: 
Colorado, Wyoming, South Dakota, Nebraska and Kansas--the 
number in that budget is decreased by 12.5 percent. That's a 
$28 million decrease in fiscal year 2007--a $28 million 
decrease. So my question is: With the decreases and the 
trajectory, how is it, Chief Kimball and Under Secretary Rey, 
that you can do your job? That's the first question. I'd like 
Chief Kimball to go first and then Under Secretary Rey.
    The second question that I have for you is the proposed 
sale of public lands. Again, you address that briefly in your 
opening comments, Under Secretary Rey, but I'd like to know 
what is different from the proposal this year than last year, 
that would allow a different kind of sentiment? You heard loud 
and clear from my Republican and Democratic colleagues on this 
committee, that that was absolutely the wrong way to go.
    So Chief Kimball, why don't you take a minute and then 
Under Secretary Rey, you take a minute.
    Ms. Kimball. All the regions will experience a shift in 
budget in this 2008 budget, given what is happening with fire 
suppression and the whole wildland fire accounting line in our 
2008 budget. Certainly the fire year we had in 2006 has a 
tremendous impact on what is available then, to be distributed 
to the national forests across the country. In 2002, I did have 
the privilege of serving as the Forest Supervisor on the Big 
Horn National Forest in Wyoming and on the Pike in San Isabel 
in Colorado and Kansas and I'm very aware of the budget 
disparities that have been historical amongst the regions. 
We've made quite some effort, actually, to be moving dollars to 
Region 2, to address some different things like the Front Range 
Fuels Project there in Colorado, certainly addressing the 
Timber Program on the Black Hills National Forest and others. 
We're undertaking some efforts nationally to reduce the size of 
our Washington office and regional offices. We're re-looking at 
how we provide overhead, how we provide----
    Senator Salazar. Let me just say, I look forward to working 
with you on those issues because I think all of my colleagues 
in Region 2 and especially I feel this way. I feel like we have 
been kind of the orphan region of the U.S. Forest Service and I 
want to see how we can get that reversed.
    Under Secretary Rey.
    Mr. Rey. Sure. With respect to the budget, let me make a 
couple of quick observations. First, we are in a tight budget 
environment. Many of the reductions that you see there are 
offset by efficiencies, with probably one glaring exception, 
and that is the amount of budget that fire suppression is 
consuming overall. And we're willing to work with the Congress 
to look for alternative ways to fund fire suppression. In 2003, 
we proposed an alternative of a governmentwide emergency 
contingency account and I think as far as we're concerned, that 
offer is still on the table.
    Second observation on budget is that in all of our USDA 
agencies, our 2008 budget was prepared in conjunction with our 
farm bill proposal and as we get into specific budget lines, 
where there is overlap between the two, I'd be happy to talk 
with the committee about some of the proposals that we're 
making to increase funding in mandatory funding areas that in 
part or in total, are going to offset some decreases.
    Now, with regard to secure rural schools----
    Senator Salazar. My time is up and I appreciate those 
comments and I look forward to working with you on those 
issues. Additionally, just keep it on your mind and also Chief 
Kimball's mind before the committee, this bark beetle problem 
that has infested a million acres now in Colorado and has 
spread into Wyoming and Idaho and a whole host of other places. 
It is going to be a continuing huge issue for me and I look 
forward to working with you on those issues. Thank you, Mr. 
Chairman.
    The Chairman. Thank you. Senator Craig.
    Senator Craig. Thank you, Mr. Chairman. I will let you pick 
up on the secure rural schools comment you were making and try 
to put it into the context of that which you proposed. I'm 
listening, but I'm struggling with the idea that we're going to 
sell capitol assets for the purpose of funding an ongoing 
annualized expense. I understand you figure you can gain net 
greater acreage. Walk us through that a little more so we 
better understand it, and secondarily, the question will then 
come, are you assuming you can get to a full-blown Northwest 
Forest Plan without appeals and being locked up in the court 
again by the environmental community? Have you bullet-proofed 
yourself there so we can get to those kind of receipts? Then 
third, when fire suppression costs go from 21 percent of the 
budget in 2000 to 45 percent of the budget today, Chief, that's 
a reality that we have to grasp a hold of. The both of you 
respond to that set of questions.
    Mr. Rey. Okay, let's start with Secure Rural Schools. In 
our proposal last year, I think we heard three major categories 
of objections. First, it was a bad idea to sell capitol assets 
to fund ongoing expenses; second, it was a bad idea generally, 
to sell Federal lands because Federal lands are sacrosanct; and 
third, there was an equity associated with where the Federal 
lands were being sold versus where the schools were being 
funded. They weren't the same in every State.
    So we listened hard to those three objections and our 
proposal now is to sell Federal lands--a reduced inventory. We 
did have public comment on the complete inventory of lands and 
some people chose to offer broad comments on my parentage or 
other broader matters, but other people actually looked at 
specific tracts and said back when we did the inventory and the 
review, a red cockaded woodpecker hadn't moved into that tract, 
and now it has, and we didn't account for that. And they were 
right. So we dropped about 27,000 acres off the inventory of 
eligible tracts to put forward in the proposal this year.
    But we also suggested that when we sold these lands, we 
would use half the money to fund the schools and the other half 
to fund land acquisition or other conservation purposes, 
proportionately to where the lands were sold. So if we sell 2 
million acres of Federal land in Mississippi--$2 million worth 
of Federal land in Mississippi, $1 million of that will go to 
the schools, $1 million of it will go back to acquire land in 
Mississippi.
    Now, the land that we typically acquire to add to the 
National Forest System is over--looking at the history of our 
exchange program, land that is economically less valuable and 
environmentally more valuable. Conversely, the land that we 
convey is economically more valuable and ecologically less 
valuable. Over the past 5 years, in our normal exchange 
process, we have acquired 3 acres for every acre that we have 
conveyed. So under our proposal, if we raise $800 million from 
selling land and take $400 million of that and buy land, we 
will be buying 3 acres for every acre that we conveyed and that 
will result in probably about a 2 to 1 increase in overall 
Federal acreage of lands that are more ecologically valuable by 
their nature and therefore more suitable for inclusion in the 
National Forest System. And we will do that faster than we can 
do it through an exchange because an exchange requires that we 
find somebody who has the land we want and wants the land we 
have or some third party to broker the effort, in a very 
tortious and time-consuming process.
    So if the concern was, as many people said, that selling 
Federal land is a bad idea, the answer is, first we exchange in 
and out of ownerships all the time. Second, the land we're 
going to buy is more valuable as well as a larger land base 
than the land we're going to sell.
    Now as far as selling capitol assets to fund ongoing 
expenses, in this proposal, we're selling capitol assets to buy 
more desirable capitol assets and funding what we believe is an 
important one-time extension of the program, to help the 
counties adjust.
    Ms. Kimball. On the Northwest Forest Plan, Region 6 and 
Region 5 have made tremendous progress between 2001 and 2006 in 
increasing their program through the resolution of quite a 
number of lawsuits, through quite a bit of public involvement, 
work with collaborative groups and in gaining support for the 
needed vegetative management work that is part of the Northwest 
Forest Plan. So our intent here in fully funding the Northwest 
Forest Plan is to address those things where we have been 
successful over the last 5 years and hopefully to continue 
that.
    Senator Craig. Sure. I spoke to fire but my time is up. 
I'll come back on the second round. Thank you.
    The Chairman. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman. The meeting 
tomorrow is going to be interesting, dealing with the Secure 
Rural Schools Program. I'm not on that subcommittee but I will 
tell you that I don't know if you can sell land of low 
environmental value and buy land at environmental value and be 
able to triple your assets. I'll trust that that's correct but 
it doesn't make a lot of sense to me. I don't want to get into 
this because there is a lot of other issues and it's already 
been dealt with.
    Chief Kimball, it's very, very good to see you here. This 
is a great position for you. You've got a tremendous amount of 
respect from the work that you've already done and the work 
you've done in Montana, and I really appreciate you here at 
this table, as well as the other folks that are testifying.
    As we deal with cuts to the Recreation, Wilderness and 
Heritage program of about $29 million, the Rocky Mountain West, 
as you well know, is probably the fastest growing region in the 
country. We've got people that are moving there for 
recreational opportunities primarily and as I see it, this 
budget would diminish access and recreational opportunities by 
potentially closing campgrounds and offering fewer services. 
Could you address that issue?
    Ms. Kimball. This budget--I have every faith this budget 
will not do what many may fear. But what this budget will do 
will cause us to have to focus our energies on some different 
things, like what we're doing with travel management planning, 
and we're doing quite a bit of that in Montana, with being able 
to identify trails, trail systems, working very collaboratively 
with public groups to be able to identify where uses can be 
combined and where uses may need to be separate, and hopefully 
to gain a lot of public support in that process.
    We are also going through a recreation facilities master 
planning and you and I had a brief moment to talk about that in 
the hallway. With recreation facilities master planning, first 
what we've done is taken an inventory of the facilities we 
have. We are also taking note of the different demands being 
made on the National Forests--four different recreation 
facilities in the public involvement process that we're taking 
on with all of those forests. The nine forests' representatives 
in Montana will be visiting with different user groups, with 
the communities, and talking about opportunities for partnering 
on some of those different facilities. But there is no intent 
to close access to the National Forests.
    Senator Tester. Do you anticipate there will be a closing? 
I know there is no intent but we're talking about a $29 million 
reduction, and I hear you talking about consolidation. I think 
that's good--efficiency is great. Do you anticipate there will 
be any closing of campsites or any diminishment of people being 
allowed access?
    Ms. Kimball. I do not expect any diminishment of people 
being allowed access. I do expect we will close very 
inefficient campgrounds in some places that get very low 
visitation. I expect that the thinking will be increasing the 
size of some campgrounds where there is greater demand and 
higher visitation.
    Senator Tester. What kind of numbers of potential 
campground closings are you talking about? How many?
    Ms. Kimball. We have not yet begun the public involvement 
process, or that is just starting now, so I can't give you any 
numbers for campground closure.
    Senator Tester. OK, thank you. I want to jump to another 
one very quickly. It deals with invasive species--noxious 
weeds, leafy spurge--all those bad weeds out there that tend to 
take over all lands, public and private. I see that there is a 
reduction of a couple different line items, potentially a lot 
of money--$20 million. By the way, I understand reductions. I 
mean, when you're talking about a $8.6 trillion debt in this 
country and $2 billion a week going out for a war in Iraq, I 
understand the pressure you guys are under.
    So I applaud that. But we've got resources here in this 
country. Invasive weeds are taking over our forests. I see a 
reduction here. Can you tell me how you can do more with less? 
Because there is more demand now than there was 10 years ago, a 
lot more than there was 20 years ago.
    Mr. Rey. I think that invasives--that's one of the areas 
where you're seeing a substantial increased commitment in our 
farm bill proposal. In the conservation and forestry title of 
the farm bill, we fund a substantial amount of invasives 
reduction work through the Environmental Quality Incentive 
Program. We're proposing to increase that program by about $420 
million a year over the authorized 10-year life of the farm 
bill proposal, and that money will be available to private as 
well as Federal landowners for invasives control.
    Senator Tester. Mr. Chairman, are we dealing with two 
budgets here? Is this the Forest Service budget? Or is there 
another budget for the Forest Service besides this one?
    Mr. Rey. I think what I said a little--right after my 
introductory remarks is that in the 2008 cycle, all of our USDA 
agency budgets were developed in conjunction with our farm bill 
proposal because many USDA agencies--in fact, most of them, 
enjoy both discretionary appropriations dollars in the annual 
appropriations as well as support for mandatory program dollars 
in the farm bill. So what we tried to do in some cases is 
balance our priorities to achieve the most efficient way to 
deliver programs.
    Senator Tester. Is it possible to get how much money the 
Forest Service spent last year on invasive species, what the 
successes were and how much money you're going to spend this 
year, with the farm program?
    Mr. Rey. Sure. I would add that the increment of farm 
bill----
    Senator Tester. Yes, I'd like that, because I need to 
compare apples with apples. I'm kind of new to this process and 
need to know if there is other stuff going on. The last thing 
is--I'm out of time, but I just want to make a comment. You 
guys don't have to answer it.
    This budget is a bit confusing anyway but I'll take the 
blame for that. But there are issues in here that deal with 
fire suppression that were split up within this budget. Quite 
frankly, we didn't get any sort of idea of what's going on here 
until about a half hour ago, 20 minutes before this meeting 
started, because when I started firing questions, my guy who 
knows a lot more about this than I do, couldn't answer the 
questions because there was not a response. I would hope that 
in future meetings, we get information a lot quicker than this, 
because I can't ask good questions if I don't have good 
information. Thank you.
    Mr. Rey. We'll endeavor to do that and we'd be happy to 
come up and visit with you to sort of go through this stuff.
    Senator Tester. Thank you very much.
    The Chairman. Senator Thomas.
    Senator Thomas. Thank you, Mr. Chairman and welcome to all 
of you on the panel. The Forest Service is a great addition to 
Wyoming and we're very involved. Chief, according to our papers 
here, it looks like a reduction of 2,100 and 27 equivalent 
staff positions. How do you deal with that?
    Ms. Kimball. Well, the budget does reflect a reduction in 
full time equivalencies. There are a number of different ways 
that we'll be addressing that. We haven't started into a 
comprehensive process of that yet, beyond what we're doing with 
the Washington office and regional office restructuring, where 
we're looking at reducing the costs of those two levels of the 
organization by 25 percent by the end of fiscal year 2009. So 
we've----
    Senator Thomas. How many would that be, roughly?
    Ms. Kimball. We don't know that yet. There are currently 
about 3,000 positions that serve at the Washington Office and 
regional office levels in the agency, so we'd be looking at a 
25 percent reduction in cost, not necessarily in positions. At 
the same time, every region and every station has been 
examining costs, out-year programs and potential efficiencies 
and the different ways of doing business. Every region, every 
research station has been identifying new organizations as 
they've worked through that, taking advantage of new 
technologies. So there is not a specific plan in place to 
arrive at exactly that number but certainly as things become 
more solid----
    Senator Thomas. How many are there in total employees in 
the Department?
    Ms. Kimball. There are approximately 35,000 employees who 
work for the U.S. Forest Service.
    Senator Thomas. So you've had 2,000 extras.
    Ms. Kimball. No. Certainly we've not. The public has much 
greater demands for those 35,000 people, and I think every 
district ranger in the system would tell me that they could use 
more.
    Senator Thomas. I suppose. Mark, I want to follow up a 
little bit. You indicate that you can sell land for three times 
as much as you buy it for. I don't quite understand that.
    Mr. Rey. The lands that we sell are generally isolated, 
smaller tracts with higher development value. So the per acre 
value of those lands has been historically higher than the 
lands we acquire. The lands we acquire tend to be more remote, 
sometimes larger tracts with higher ecological values, which is 
why we want them, but oftentimes, complications are associated 
with whether they could ever be developed for a higher use. So 
if you appraise those lands--and our exchanges are always 
value-for-value exchanges--when you appraise those lands, the 
lands that we have been conveying--trading out of--have been, 
on the average, on an acre basis, three times more valuable 
than the lands we've been acquiring for subsequent development 
purposes.
    Senator Thomas. Chief, do you think you're going to have 
adequate funding to monitor the recovery and de-listing of 
endangered species, such as grizzly bears and wolves, which 
have taken years and years to de-list?
    Ms. Kimball. Well, there are multi-agency responsibilities, 
and certainly we work closely with the States and the U.S. Fish 
and Wildlife Service. There will be some challenges in 
combining all those budgets and all those efforts to provide 
that kind of monitoring, but we're talking about those things 
right now.
    Senator Thomas. Are you inclined to want to seek to be able 
to do it more quickly than you have in the past?
    Ms. Kimball. On a budget kind of basis?
    Senator Thomas. Well, I'm talking about the end result. The 
budget may have something to do with it.
    Mr. Rey. I don't think the process or the progress toward 
de-listing species has been budget restricted. I think the 
process has been lengthened by the need to convince anybody 
that wants to challenge a de-listing decision and subsequently 
convince the courts in the aftermath of that challenge that the 
de-listing decision was justified.
    Senator Thomas. Well, we need to find some ways. I don't 
think the courts have held it up much on grizzlies but it's 
gone on for years and years. Wolves are a little different 
matter.
    Secretary, it's a little hard for some of us to accept the 
idea that $70 million will fully fund the Northwest Plan, while 
at the same time funds are out for all the rest of the plans. 
How do you justify that?
    Mr. Rey. Well, what we propose in the 2008 budget is to 
keep most of the other regions level, in some cases increasing 
slightly. Now, we won't know the final result of that until we 
actually start the allocation process after the Interior 
appropriations bill passes. But there is no intent to penalize 
some other region in the interest of fully funding the 
Northwest Forest.
    Senator Thomas. Well, I hope that's the case, but when your 
overall budget is down and you increase one area by $70 
million, it's a little hard to understand that you're not going 
to have to take it away from somewhere else.
    Mr. Rey. Well, in this case, we may have taken it away from 
other priorities, but not other regions in this particular 
account.
    Senator Thomas. Well, we'll be staying with you on that. 
Thank you very much.
    The Chairman. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman and Chief Kimball, 
let me join in welcoming you as well. It's great to see more 
trailblazing in the western part of the country. Secretary Rey, 
let me start with you and a question about where we are with 
respect to forestry policy, generally; that's where I'd like to 
start. I've been involved in the only two major forestry bills 
that have been enacted in the last 20 years--the County Payment 
legislation and the Forest Health legislation--and both of them 
were intensely bipartisan efforts. I'd like to continue that. 
Now, bipartisanship pretty much blew up last session in terms 
of the Secure Rural Schools on the land sales effort. We 
couldn't get a single Republican Senator to say they were going 
to put any effort into it and obviously today, we're not 
exactly seeing Republican U.S. Senators tripping over 
themselves to come out for this year's version of the land 
sales proposal as well. So I'd like to get bipartisanship back 
on track here and I know what I do when I want to get something 
bipartisan done. I go over to the other side of the aisle and I 
say, ``What do you need? And here's what I'm interested in,'' 
and we go back and forth. I mean, what is your sense of how the 
administration wants to try to get bipartisanship back on track 
in the forestry area?
    Mr. Rey. Well, in regard to this particular issue, we've 
worked with staff on both sides of the aisle over the course of 
last year, to evaluate the opportunity to look at other offsets 
to fund this re-authorization. Unfortunately, that search was 
unsuccessful, but it has been our willingness to continue to do 
that. We stated when we made our proposal last year that we 
were willing to work with Members of Congress on both sides of 
the aisle to look at options for funding this.
    I think we've redeemed that commitment in the discussions 
that we had during the course of the year. I think your staff 
would probably validate that and that's a commitment that still 
exists today. It's a commitment that is reflected in how we've 
modified the proposal. If somebody wants to say that they are 
philosophically opposed to selling Federal land and that that's 
a dead letter and it can never happen, I guess my observation 
is: No. 1, then you're essentially opposing what has been 
happening on a fairly routine basis for the last 60 or so 
years, because we do trade land. We do buy land. We do sell 
land. We continually adjust the Federal estate to get the best 
lands that have national environmental significance into 
Federal protection and we continually convey lands.
    Senator Reid had a bill last session that conveyed public 
land out of public ownership as part of an overall conservation 
package. So I mean, I think the first thing I'd say, if you are 
philosophically opposed to that, that it's just 
incomprehensible that you'd even contemplate such a proposal, 
that's sort of running contrary to what the history of this has 
been. The second thing I guess I'd say is, OK. I can accept 
that. People have strong philosophical positions on a lot of 
things. So then if that's your philosophy, you probably would 
have some alternatives, and if there are alternatives, we're 
happy to look at them. We haven't rejected any alternatives. We 
didn't reject the alternative that U.S. Senator Baucus put 
forward. Unfortunately, the Congress didn't adopt it.
    Senator Wyden. We were waiting, of course, for some comment 
from the administration that it would be supported, and it 
clearly was a good idea because the administration used the 
money for tax cuts. So we did put off the alternatives and 
we'll continue to try to find bipartisan common ground. I think 
we'll see again, that Republicans are not going to embrace your 
land sales proposal and I hope that you'll be interested in 
looking at other approaches.
    Chief Kimball, let me ask you one question, since you're 
getting started and obviously you are thrown into the debate 
immediately. We have a pretty serious difference of opinion 
with respect to funding the forest health legislation. We felt 
very strongly that it was very important to get $760 million 
because we wanted to do prevention, and the whole point of the 
effort was to try to get serious in the prevention area, so you 
wouldn't just be dealing with these conflagrations down the 
road.
    The administration consistently sends up proposals that are 
about a half or less of what we had agreed, in our bipartisan 
basis, was needed. Now, each time I go through this math, I end 
up more baffled as to how the administration adds up the 
numbers. But since you're the new Chief, I want to give you a 
chance in my first discussion with you, to tell me how your 
numbers add up to the $760 million a year commitment on forest 
health, and I'd like to hear your answer to how those numbers 
add up to $760 million.
    Ms. Kimball. Well, in fact, when you add up the Department 
of Interior and the Forest Service efforts together for healthy 
forests, the total that appeared in the 2007 budget was just 
over $900 million. I'd be happy to sit down with you and go 
over those numbers.
    Senator Wyden. Why don't you do it now? Go ahead. Let's do 
it now.
    Ms. Kimball. You're sure?
    Senator Wyden. Please.
    Ms. Kimball. These numbers are--it's a long list.
    Senator Wyden. Why don't you just give me how it gets to 
$760 million.
    Ms. Kimball. Department of the Interior was $302 million 
and the Forest Service was $610 million for a total of $912 
million and last year, there were 4 million acres treated, a 
combination of Department of the Interior and U.S. Forest 
Service. This year, we anticipate 4.3 million to be treated in 
2007, and then 4.4 million in 2008.
    Senator Wyden. That's not what we hear on the ground and 
what we hear from the various national forests. This is your 
first appearance, and I think it is only appropriate for you to 
have a chance to review your math, but I can tell you, out in 
the field, people don't see those dollars.
    Ms. Kimball. Well, having just come in from the field, I 
think there are a lot of efforts going on across the country. I 
know specifically in the Northern Region, we are working very 
hard on a strategy for treating forests for more resilient, 
healthier forests and we were looking at leveraging dollars 
amongst the different budget line items, and in the different 
programs so that our timber program, wildlife habitat 
manipulation, hazardous fuel reduction programs, and watershed 
treatment programs all worked in concert to not only complete 
the specified objectives that come with those different dollars 
but also to accomplish hazardous fuel reduction. So I think 
there is a tremendous effort in the field to leverage dollars 
and to use dollars more effectively, more efficiently.
    Mr. Rey. In the interests of bipartisanship, Senator Wyden, 
I think you're sort of selling your accomplishments short. I 
think both of the pieces of the legislation that you had a role 
in co-authoring have been successes by any measure. The Secure 
Rural Schools legislation provided a substantial amount of 
funding to counties to help make the transition to a more 
diversified economy, and many of them in your State have. Many 
of them haven't. Those are the ones we have to work together to 
see if we can help in the next iteration of this legislation. 
The Resource Advisory Committees that that legislation 
authorized have been a stunning success. The Healthy Forest 
Restoration Act has resulted in the treatment, over the last 5 
years--by the end of this year, close to 25 million acres of 
at-risk Federal lands, four times more acres on the average 
than we were treating in the 1990's, an area the size of the 
State of Ohio.
    So I think the fact that you invested time in developing 
those bipartisan solutions is reflected in the fact that both 
of those statutes have been successful.
    Senator Wyden. My time is up. I just note the profound 
difference between those pieces of legislation and what we're 
dealing with now. With Secure Rural Schools, there is a 
widespread Republican support. Now with respect to selling off 
lands, there has not been a single Republican United States 
Senator willing to embrace that proposal. That's the 
difference. Thank you, Mr. Chairman.
    The Chairman. Senator Sanders.
    Senator Sanders. Thank you, Mr. Chairman, and I regard it 
as an awesome responsibility to be representing solely the 
entire eastern part of the United States of America. But I'll 
take on that responsibility, and I don't want to embarrass my 
western friends, so we won't mention where next year's capital 
Christmas tree is coming from. We won't tell them.
    [Laughter.]
    Ms. Kimball. It's from a very special National Forest.
    Senator Sanders. Thank you both for being here. My 
questions deal with the Green Mountain National Forest. As both 
of you know, last year, the Green Mountain National Forest 
adopted a new forest plan and I want to compliment the work 
done by the staff. You guys did a very, very good job and we 
enjoyed working with you. There was a whole lot of public 
participation in it, and while there was difference of opinion, 
I think it ended up working out well.
    Bottom line though, is that any plan is only as good as its 
implementation. For more than 10 years, the harvest rate at the 
Green Mountain National Forest has been at less than 10 percent 
of the allowable sale quantity, causing a great concern for our 
resource- dependent rural communities. The curtailing of the 
timber harvest has much to do with the shortage of staffing 
capacity in the Forest Service to administer the Timber 
Program. It also involves the larger issue of fully funding the 
Forest Management Plan.
    So my question to you is: how are we going to address that 
very serious economic problem in Vermont? How are we going to 
raise the level of timber harvesting above 10 percent? Chief 
Kimball?
    Ms. Kimball. And I have to admit, I don't have very 
detailed information about the Timber Program on the Green 
Mountain National Forest, despite the fact that I'm also a 
Vermonter. But I will work on getting on that information and 
I'd be happy to visit with you.
    Senator Sanders. Yeah, I would look forward to having----
    Mr. Rey. If I could just add----
    Senator Sanders. Yeah.
    Mr. Rey. One of the problems that the Green Mountain 
experienced in the late 1990's and the early part of this 
decade, very similar to a number of the other Eastern National 
Forests, is we had litigation over the protection of the 
Indiana bat, a threatened or endangered species.
    Senator Sanders. I'd like to go to my second question. 
Thank you. The second question is again very specific and you 
may not have the answer in front of you but I would like to 
talk to you about it in the office. There is an acquisition 
backlog at the Green Mountain National Forest; an additional $1 
million was programmed to help address acquisition priorities 
in the fiscal year 2007 Interior appropriations bill, but 
unfortunately it was not included in the continuing resolution. 
I want to bring to your attention a very important land 
conservation project in the Green Mountain National Forest that 
depends upon this final $1 million--not a lot of money. In 
order to be completed, the landowner has been very patient over 
several years while funding was sought. Can I count on the 
Forest Service to fund the land acquisition account in fiscal 
year 2007 and in particular, allocate $1 million to the Green 
Mountain National Forest for the completion of the Broad Brook 
property? The Broad Brook property is what we're talking about. 
Additionally, will you work within the proposed budget to 
ensure that high priority acquisitions within the Green 
Mountain National Forest, such as the Broad Brook property, are 
completed in fiscal year 2008? Do you have any information on 
that, Chief?
    Ms. Kimball. We're just looking through that now. Give me a 
moment, please. Apparently there has been a tremendous amount 
of work done to date, but I need to understand more about the 
current situation on those two specific items.
    Senator Sanders. Okay. Congratulations, by the way, on your 
appointment.
    Ms. Kimball. Thank you, Senator.
    Senator Sanders. We'll give you a ring and if you can come 
in, we'll bring some people in that know more than I do about 
it, and we can see how we can go forward, okay?
    Ms. Kimball. Right. Thank you.
    Senator Sanders. Mr. Chairman, thanks very much.
    The Chairman. Thank you very much, and thank all the 
witnesses for being here. I think it has been a useful hearing. 
We will adjourn and have another hearing later on. Thanks.
    Ms. Kimball. Thank you, Senator.
    [Whereupon, at 11:03 a.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

     Responses of the Department of Agriculture to Questions From 
                            Senator Bingaman
    Question 1. When Chief Bosworth retired he was quoted as advising 
Forest Service staff that that ``the biggest challenge will be the 
effect of climate change on the natural resources in our care.'' Do you 
agree that climate change presents the biggest challenge to the Forest 
Service? If not, what do you think is the biggest challenge?
    Answer. We agree that effects of climate change will increasingly 
be a great challenge to our natural resources. Even now, the moderate 
climate change measured to date, has affected natural resources by 
coupling with and acting upon wildfires, insect infestations, and 
invasive species in the West, and with insect infestations and air 
pollutants in the East and in certain regions such as southern 
California. As future climate change increases in amount, it appears it 
will increasingly impact natural resources, but always in concert with 
these other stresses. It is the interactions among the stresses which 
will always be the greatest challenge for managing the natural 
resources in our care.
    Question 2. In your testimony, you mentioned that the Forest 
Service progressed from being ``in receivership, to achieving five 
clean audit opinions with enhanced internal controls . . . And accurate 
and complete financial data'' under the leadership of Chief Bosworth.
    According to the Inspector General, ``Forest Service performance 
management remains one of the Department of Agriculture's most serious 
management challenges.'' In 2003, the GAO reported that ``the Forest 
Service has made little real progress in resolving its long-standing 
performance accountability problems and, based on the status of its 
current efforts, remains years away from implementing a credible 
performance accountability system.''
    Will you make improving performance accountability a priority? What 
are your plans to address these problems?
    Answer. Yes, As stated in Chief Kimbell's testimony on February 28, 
2007, under previous Chief Dale Bosworth's leadership, the agency 
progressed from being ``in receivership,'' to achieving five 
consecutive clean audit opinions from the USDA Office of the Inspector 
General (FY 2002-FY 2006). Chief Bosworth reduced overhead costs, 
reorganized the Deputy areas by eliminating two Deputy Chief positions 
and reducing staff, and guided the agency through the centralization 
and reengineering of its business processes--whose net cost reductions 
will approach $100 million by fiscal year 2008. The Forest Service's 
improved business policies, processes, and organization have enhanced 
internal controls, eliminated duplication, and created accurate and 
complete financial data.
    The agency has made significant progress in resolving performance 
accountability issues identified in the 2003 GAO report. The agency has 
implemented a Performance and Accountability System that provides 
management the means to track budget and performance results at all 
levels of the organization. Performance indicators from numerous 
electronic systems are now integrated to provide a single system of 
record. Effective FY 2007, all employee performance standards are tied 
directly to one or more goals and objectives of the agency's strategic 
plan. In addition, Senior Executive Service employee performance 
standards are tied directly to delivery of agency performance 
objectives. Beginning last fiscal year, the agency instituted field 
performance accountability reviews, completing 4 in FY 2006 and has 4 
scheduled for FY 2007. Finally, the agency is addressing business rules 
for accomplishment recording/reporting that have caused many of the 
inconsistencies reported by IG and GAO.
    Question 3. Do you believe that the relative funding requested by 
the President for Wildland Firefighters and Preparedness is the most 
efficient level? Do you believe that greater efficiency would result 
from moving some funding from the Wildland Firefighters account to the 
Preparedness account or vice versa?
    Answer. The FY 2008 President's budget request will provide an 
efficient level of funds and resources for implementation of the 
program put forth in the President's Budget. The agency does not use 
the term ``most efficient level'' as it relates funding or staffing.
    By establishing the Wildland Firefighters appropriation, the budget 
would ensure a stable number of firefighters and supports the Forest 
Service transition to a risk-evaluation and informed performance and 
accountability system.
 Responses of the Department of Agriculture to Questions From Senator 
                             Maria Cantwell
                          wildland fire budget
    Question 4. Mr. Rey, I asked you the following questions at the 
January 30, 2007 hearing on wildfire suppression costs and have yet to 
hear your response: What specific amount of money was spent on wildland 
firefighter training activities nationally in the last fiscal year? Can 
you please provide the specific amount of money spent on wildland 
firefighter training activities for each of the 10 Forest Service 
regions and in Washington state in the last fiscal year? How does these 
figures compare to 2001?
    Answer. The approximate amount of money spent on wildfire training 
during FY 2006 will be similar to the $29.5 million we have spent on 
training for each of the past several years. Approximately $7.1 million 
is spent in support of Regional and National Suppression and Fire Use 
Academies, and Training Centers. The cost for regional and local fire 
training is approximately $22.4 million.
    The number of Forest Service fire personnel that are in the State 
of Washington (FS Region 6 in the table below represents Washington and 
Oregon) is 1,760. The annual cost of training Forest Service personnel 
in Washington State was approximately $1,310,000 in FY 2006.

  APPROXIMATE FY 2006 ALLOCATION OF WILDFIRE TRAINING DOLLARS BY REGION
------------------------------------------------------------------------
                                                             Training
                                                  Fire        Funding
                    Region                     Personnel      (Actual
                                                             Dollars)
------------------------------------------------------------------------
1............................................      3,529      $2,621,000
2............................................      2,050      $1,523,000
3............................................      2,858      $2,128,000
4............................................      3,149      $2,352,000
5............................................      6,446      $4,794,000
6............................................      5,465      $4,077,000
8............................................      3,760      $2,800,000
9............................................      2,442      $1,814,000
10...........................................        399        $291,000
                                              --------------------------
      Total..................................     30,100     $22,400,000
------------------------------------------------------------------------

    These figures have fluctuated only slightly with the number of new 
hires each year, and remain essentially the same since 2001.
    Question 5. The indictment of a Washington firefighter for his role 
in the deaths of four firefighters from the Thirtymile fire in 2001 may 
lead to challenges in retaining and recruiting wildland firefighters. 
Can you please describe what efforts the Forest Service is undertaking 
to retain and recruit firefighters, particularly for leadership 
positions?
    Answer. We have a good success rate of filling positions and on an 
annual basis receive multiple applicants for the vast majority of our 
vacant positions. However, almost all of our leadership positions are 
filled by individuals already working for the Forest Service, Interior 
agencies or State partners that have wildfire suppression 
responsibilities. We have continued vigorous support for the highly 
successful development and delivery of a leadership curriculum that is 
required at a variety of stages as individuals progress upward within 
the incident response organization.
    Question 6. The FY08 budget notes that the Forest Service will 
``examine the feasibility and implement as appropriate'' a process to 
account for wildfires that contribute to attainment of desired 
ecological and natural resource conditions. What is the agency's 
timeline for completing these tasks? Will they provide a report to the 
Committee on their progress and announce publicly when they have made 
these important changes?
    Answer. The agency is currently working with its Federal wildland 
fire management partners in an attempt to reach agreement on modifying 
the current Federal Wildland Fire Management Policy to allow 
accomplishment and reporting of fuel reductions during wildfire 
suppression activities. Currently the review and modification of 
policies to allow reporting of hazardous fuel reductions that meet 
forest plan objectives, regardless of the method under which it was 
accomplished, is estimated for completion by spring of 2007. These 
discussions are on-going internally and with interagency cooperators. 
An exact timeframe is unknown at this time but will occur within FY 
2008. We can provide periodic updates that would describe current 
actions.
    Question 7. The FY08 budget introduces a new line item, a Wildland 
Firefighter appropriation. The budget notes that establishing this 
single account for professional wildland firefighters will ``enhance 
performance, improve accountability, and provide greater efficiency in 
managing wildland fires.'' Please explain in more detail how this new 
account will achieve these goals.
    Answer. The Wildland Firefighter account will help stabilize the 
number of firefighters by reducing funding uncertainties from year to 
year. This will result in less personnel turnover providing for 
enhanced firefighter skills through experience and long term training. 
This stable and skilled workforce will ensure a more professional and 
efficient workforce and program.
    Question 8. The FY08 budget continues a downward trend in funding 
for community fire protection programs. Critical programs such as State 
and Volunteer Fire Assistance put scarce dollars where they are needed 
most ``in and around communities'' but under the President's Budget 
these programs continue to struggle to simply keep up with inflation. 
This budget proposes they be reduced to $85.1 million, an 8 percent cut 
from the FY2006 level of $92.4 million. While this represents a needed 
increase from the Administration's drastic 25 percent cuts in the 
FY2007 Budget proposal, these programs were woefully underfunded to 
begin with and these proposed reductions still mean a continued decline 
in community fire assistance funds that are critical to at-risk 
communities. How will the Forest Service ensure effective partnerships 
with at-risk communities when community assistance funding is 
underfunded and continues to decline?
    Answer. In the State and Private Forestry appropriation, the 
program is up over $3 million. In the Wildland Fire Management 
appropriation, when the earmarks are eliminated, the decrease is 
slight.
    The Administration's budget proposal for State and local fire 
assistance is formulated to balance different areas of necessary 
Wildland Fire Management work, and is based on the priority of 
Cooperative Fire Protection among all discretionary programs in 
government.
    We value these partnerships and will continue to work with the 
States to assist them in carrying out their programs with the potential 
for a reduced budget.
    Question 9. A critical community capacity-building program, the 
Economic Action Program, has again been eliminated in the FY08 budget 
proposal. EAP helps ensure that forest-dependent communities can be 
full partners with the federal government in restoring forest 
ecosystems through grants and technical assistance to build 
restoration-based businesses, develop and implement collaborative 
planning and monitoring, and leverage private sector dollars. How does 
the Forest Service intend to fulfill these goals without EAP?
    Answer. The agency encourages Forest Service employees to provide 
technical assistance to rural communities when requested regardless of 
the budget the account they might be paid from. State and Private 
Forestry Cooperative Fire Protection and Forest Health Management 
programs will be able to provide financial assistance to rural 
communities through the State Foresters.
                           hfi implementation
    Question 10a. Difficulties in prioritizing hazardous fuels projects 
continue to be a problem. The USDA IG recently reported that the Forest 
Service lacks an adequate prioritization system to ensure that the most 
important fuel reduction projects are funded first. This conclusion 
echoes past findings by the OIG and GAO. The Healthy Forests 
Restoration Act (HFRA) requires that federal land management agencies 
consider the priorities of local communities, as expressed in a CWPP, 
as they develop and implement forest management and hazardous fuel 
reduction projects. However, it is unclear how well priorities 
identified in CWPPs are being incorporated into federal fuel reduction 
projects and funding for hazardous fuels reduction continues to rise 
(it is increased by about 4% over FY06 in this year's budget). This 
raises a number of questions.
    What will the Forest Service do to rectify this on-going problem 
prioritizing hazardous fuels projects? How will they ensure they are 
prioritizing using proven practices to protect high-risk communities?
    Answer. The LANDFIRE Rapid Assessment has produced maps and models 
of potential natural vegetation groups, reference fire regimes, and 
fire regime condition class for the conterminous United States. The 
LANDFIRE Rapid Assessment data can be used for national- to regional-
scale strategic planning, broad ecological assessments, and resource 
allocation. More locally, the highest priority areas for fuel 
treatments continue to be those wildland urban interface zones adjacent 
to communities where partnerships between the agency, State, and local 
government and community stakeholders are strong and hazardous fuels 
mitigation efforts will successfully mitigate the effects of wildfire.
    The Forest Service initiated a new prioritization process for FY 
2007. The Forest Service and DOI are currently working to develop a 
common approach for the prioritization of hazardous fuels mitigation 
projects for FY 2008 allocation decisions. The current system relies on 
nationally-consistent, scientifically-credible, geospatially-referenced 
data to help rank Forest Service Regions according to priority. 
Prioritization factors currently included in the system are: wildfire 
potential, wildland-urban interface acres, timber values at risk, 
municipal watersheds, overall ecosystem vulnerability, program 
efficiency and effectiveness, and restoration opportunities.
    Most importantly, this system is a decision support model and does 
not replace management discretion. The system is currently designed to 
evaluate Regions for prioritization and is being modified to provide 
the same analysis capabilities to assist Regions in prioritizing fuels 
treatments. Individual project selection will continue to be at the 
discretion of local line officers in coordination with other Federal, 
State, and local agencies with particular emphasis on projects 
associated with Community Wildfire Protection Plans.
    Question 10b. The Forest Service continues to use ``acres treated'' 
as a measure of success in hazardous fuels treatment. This is 
problematic because not all acres are ``equal'', i.e. the agency treats 
``easy'' acres first. Also, this is not a measure of risk reduced. The 
agency attempts to quantify risk by using condition class, another 
measure with known flaws. Condition class measures only show current 
vegetation differs from historical vegetation, it says nothing about 
how those differences affect fire behavior or risk. Why does the agency 
continue to use these measures when they do not provide the information 
needed to measure success?
    Answer. We are continuing to develop and implement analysis tools 
for landscape design to maximize the effectiveness of fuels treatments 
while meeting a variety of integrated resource objectives to restore 
healthy forests. The agency's annual fuel treatment program is a mix of 
projects that not only reduce wildfire risk to communities, but also 
protect, restore, and maintain forest and grasslands. The costs 
associated with these treatments vary and it is not correct to assume 
we treat the easiest acre first. The information associated with 
condition class is relevant for vegetative conditions and is based on 
the best available data and technology. Through adoption of the 
December 2006 update to the 10 Year Strategy Implementation Plan, the 
agency has adopted new performance measures that incorporate outcome 
goals. Improvements in quantifying risk through condition class and 
other means will occur as the effects of fuels and vegetation 
treatments are calibrated and validated by field practitioners and will 
improve our capability to define success through these new measures.
                     post-fire response priorities
    Question 11a. Proactive community fire protection work is often 
pushed aside when a wildfire burns in the National Forest System. All 
available staff and financial resources typically are shifted to 
fighting the fire itself, the recovery efforts after the fire, and the 
subsequent post-fire ``salvage'' harvests to follow. As a result, 
planning and implementation of fuels reduction projects that protect 
communities are delayed for months or years, our National Forest System 
has a growing backlog of such projects, and communities are at higher 
risk for future wildfire, thus perpetuating the problem.
    How many community fire protection projects and associated acres 
have been postponed in order to facilitate salvage harvests over the 
past 6 years? (SPF)
    Answer. While the agency does not collect or maintain data specific 
to this question generally the resources, skills and funding needed to 
prepare and administer salvage sales are not the same set as those 
needed to conduct non-salvage related fuel hazard reduction projects. 
The two activities do not compete with each other. Decisions to pursue 
salvage opportunities are at the discretion of local line officers and 
every attempt is made to prioritize and achieve hazardous fuel and 
restoration objectives through salvage sale activities.
    Question 11b. How many of these project areas subsequently burned 
before they could be treated? (SPF)
    Answer. This information is not available at the national level. 
The agency is working to map planned hazardous fuel reduction 
treatments, but the priority remains on developing a national map of 
completed treatments. In addition, the U.S. Geological Survey has 
recently completed improvements to their burn severity mapping program.
    Question 11c. How much money was lost or gained by the Forest 
Service in these related salvage efforts? (NFS)
    Answer. The agency does not maintain cost or revenue records 
specific to salvage sales that are undertaken in lieu of community 
protection or fuel hazard reduction projects. Nor does the agency 
collect data regarding salvage sales located in areas where fuel hazard 
reduction projects were planned--but did not occur prior to an 
occurrence of wildfire.
    Question 11d. How can the Forest Service create a dedicated funding 
source to maintain proactive green projects in order to reduce long-
term community fire risks? (SPF)
    Answer. Specific Forest Service budget line items in the National 
Forest System and Wildland Fire Management appropriations are used to 
carry-out projects that reduce hazardous fuels and improve community 
protection from wildland fire. However, current authorities allow the 
agency to transfer any funds available to the Forest Service for fire 
fighting, emergency rehabilitation, and fire preparedness due to severe 
burning conditions when previously appropriated wildfire suppression 
funds have been exhausted. The Forest Service is committed to reducing 
hazardous fuel in areas that can provide for improved community 
protection from wildland fire. The FY 2008 President's Budget estimates 
over 75 percent of the total hazardous fuel reduction program will be 
used for wildland-urban interface activities. In addition the use of 
stewardship contracting to enhance community protection is being 
emphasized.
                         northwest forest plan
    Question 12. The Northwest Forest Plan is a multi-agency, 
scientifically credible, based plan which has provided a blueprint to 
federal agencies for how to manage the public lands in western 
Washington, Oregon, and Northern California. Current Administration 
efforts, especially the current direction for revising the BLM resource 
management plans and current directions for maintaining critical 
habitat designations are likely to undermine the scientific and legal 
foundation for the Plan. Currently, much of the responsibility for 
providing wildlife and salmon habitat and protection of the ancient 
forest ecosystem rests on federal lands.
    If the scientific framework and credibility of the Northwest Forest 
Plan is weakened by reducing protections as currently allowed by the 
Northwest Forest Plan, what type of impact might that have on privately 
owned forests? Specifically, how would undercutting the scientific 
assumptions (substantial federal land protection) built into Habitat 
Conservation Plans impact private forest land and State managed forest 
land management?
    Answer. The Forest Service has no proposals to modify the 
protections incorporated into these plans. The question as framed could 
best be addressed by the Bureau of Land Management. Habitat 
Conservation Plans are prepared by the U.S Fish and Wildlife Service to 
address how private landowners conserve listed species. This question 
should be addressed by that agency.
                               recreation
    Question 13a. The Forest Service is currently conducting a review 
of its recreation facilities and has begun advocating for shutting down 
campsites and closing cabins due to funding shortfalls. Recreation is 
the largest use of the National Forest System, and further increasing 
with loss of open space and increasing population. However, the 
proposed budget for FY08 included $27.4 million decrease in 
appropriations from FY06.
    How many recreational facilities is the Forest Service estimating 
closing?
    Answer. The Forest Service has not identified specific site 
closures that will be affected by the FY 2008 budget reduction. The 
agency is currently undergoing a review of its recreation facilities 
through the Recreation Site Facility Master Planning (RS-FMP) process. 
RS-FMP will result in a higher quality, more efficiently managed 
developed recreation program where the facilities reflect visitor 
desires and use. Funding levels are not the only factor of this 
analysis. Many factors are considered in evaluating each developed 
recreation site and through RS-FMP national forests examine their 
recreation facilities and evaluate how they might operate and maintain 
existing structures at desired quality standards. Involvement of the 
local public, surrounding communities and each national forest's 
recreation visitors is a critical and essential component of the RS-FMP 
process.
    Question 13b. How is the Forest Service going to address the 
recreation shortfalls?
    Answer. The proposed reduction in funds may result in shortened 
seasons at some developed and dispersed recreation sites; reduced hours 
for visitor information services with minimal staffing at some sites; 
processing new special use permit applications would be limited; 
restoration and adaptive reuse of heritage properties for 
interpretation, recreation, and tourism will occur at reduced levels; 
and a limited number of wilderness rangers will be available to provide 
visitor information and education. However, recreation resources will 
continue to be directed towards efforts that maximize program delivery, 
including strengthening partnerships which are vital to accomplishing 
stewardship work on the ground. Facility master planning also helps 
each national forest align their developed recreation sites with the 
unique characteristics of the forest, projected recreation demand, 
visitor expectations, and revenue.
                             roadless areas
    Question 14. Mr. Rey, the Bush Administration has spent six years 
trying to overturn the 2001 Clinton Administration Roadless Rule. As 
you know, the most recent legal ruling in this costly legal saga has 
been to reinstate the 2001 Rule. Will the Bush Administration finally 
end its divisive efforts to overturn this broadly popular Rule? Is the 
Forest Service planning on taking any further action on the state 
petitions it has received to date? Please update me on the state of the 
Forest Service's road maintenance backlog, including an estimation of 
its overall cost and an explanation of how these figures were derived. 
How has the Forest Service's road maintenance backlog changed from 2001 
until today?
    Answer. The 2001 Roadless Area Conservation Rule (RACR) called for 
protection through prohibitions on timber harvesting and road 
construction and reconstruction on approximately 58.5 million acres, or 
roughly one-third, of all National Forest System (NFS) lands. Ten 
lawsuits have been filed against RACR. While the RACR was in and out of 
effect by court ruling, the Forest Service issued interim directives 
for the continued protection of roadless areas. The last of these 
interim directives will expire on July 16, 2007. In the court case 
Alaska v. USDA, the Government negotiated a settlement with the State 
of Alaska which led to an amendment to the RACR. This amendment exempts 
approximately 9.3 million roadless area acres on the Tongass National 
Forest from the rule. Therefore, approximately 47.2 million acres of 
NFS lands are currently being protected under the RACR.
    The RACR was enjoined by the U.S. District Court for the District 
of Wyoming on July 14, 2003. An appeal on this ruling was made moot by 
the 10th Circuit Court of Appeals because the Government issued a new 
rule for roadless area protection on May 13, 2005. This new rule, the 
State Petitions for Inventoried Roadless Area Management (State 
Petitions Rule), allowed governors to petition the Secretary of 
Agriculture to promulgate regulations for establishing management 
requirements for all or any portion of NFS inventoried roadless areas 
within that State or territory. The Secretary received petitions from 
California, Idaho, New Mexico, North and South Carolina, and Virginia. 
On September 20, 2006, the U.S. District Court for the Northern 
District of California enjoined the State Petitions Rule and reinstated 
the RACR with the Alaska exemption. All Department and Forest Service 
activities are in compliance with this ruling. In response, the State 
of Wyoming, on September 22, 2006, filed a motion with the U.S. 
District Court for the District of Wyoming which basically requests 
another injunction on the RACR. A hearing on this motion is scheduled 
for April 18, 2007. Additionally, on April 5, 2007, the Government 
appealed the District Court decision on the State Petitions Rule to the 
9th Circuit Court of Appeals.
    Subsequent to the injunction on the State Petitions Rule, the 
administration informed those States that had previously filed under 
the rule, that they could file a similar petition under the 
Administrative Procedure Act (APA) at (5 U.S.C. 553(e)) and Department 
of Agriculture regulations at 7 CFR 1.28. The States of California, New 
Mexico, North and South Carolina, and Virginia have not filled a 
petition under the APA. Therefore, the Forest Service has taken no 
further actions with these States on their petitions.
    Idaho Governor James Risch on October 5, 2006, resubmitted his 
petition under the APA. The Forest Service signed a memorandum of 
understanding (MOU) with the State and is currently working with the 
State of Idaho on a State-specific rule. The rulemaking is based upon 
the submitted petition with clarifications made by Governor Risch 
during his November 29, 2006 presentation to the Roadless Area 
Conservation National Advisory Committee (RACNAC). A proposed rule and 
supporting draft environmental impact statement are expected later this 
year for public review and comment. Current Idaho Governor C.L. 
``Butch'' Otter supports the petition.
    Colorado Governor Bill Owens, on November 13, 2006, also submitted 
a petition under the APA. At the request of Governor Bill Ritter, the 
administration has waited for his approval before proceeding with the 
RACNAC's and Department's review of the petition. On April 11, 2007, 
Governor Ritter informed Under Secretary Mark Rey that he was willing 
to go forward with the petition submitted by Governor Owens with 
amendments. However before going forward, he requested interim 
protections for the identified roadless areas and Colorado's right to 
withdraw its petition if the rulemaking is unacceptable to the State. 
If the State of Colorado continues with its petition and it is accepted 
by the Secretary, the Forest Service will sign an MOU with the State of 
Colorado and work on a State-specific rule based on the Colorado 
petition.
    The Forest Service continues to believe that the best approach for 
finding the appropriate level of protection of these important lands is 
through State Governors petitioning through the Administrative 
Procedure Act process, or by the State Petitions Rule if it is 
reinstated by the courts. This is the policy we are currently 
following.
     Responses of the Department of Agriculture to Questions From 
                            Senator Sanders
    Question 15. The Green Mountain National Forest (GMNF) has taken a 
leading role in restoration of the Battenkill River in Vermont and New 
York for many years, with funds directly appropriated for that purpose. 
The Battenkill work has involved many partners and has been a great 
outreach opportunity for the Forest Service in southern Vermont. What 
is the intention and capacity of the Forest Service to continue this 
important work?
    Answer. The FY 2008 President's Budget does not include the earmark 
provided in FY 2006. The FY 2008 President's Budget relative to the FY 
2007 enacted budget, decreases the wildlife and fisheries habitat 
management budget by -$10.9 million (-9%).
    This program level will provide funds for high priority treatments; 
however, unit specific allocations have not been determined at this 
time.
    Question 16. Bromely Ski area in Vermont has proposed a land 
exchange with the Forest Service. The main trail groups and other 
interested parties in Vermont are supportive but the proposal has not 
moved forward, pending legislation affecting the disposition of 
proceeds from the project. Meanwhile, there has been no progress on the 
lengthy review process that would actually get the ball rolling. Will 
the U.S. Forest Service commence the environmental review of this 
project as soon as possible, understanding that completion of the 
transfer may require legislation?
    Answer. The Forest Service is ready to move ahead with the 
exchange. However while the Federal land has been identified at Bromley 
Ski Area, the non-Federal land to balance the exchange has yet to be 
identified. Without a compliment of private lands to balance the loss 
of Federal land at Bromley Ski Area, the Forest Service cannot move 
forward with the environmental analysis. The agency is currently 
working with citizen groups, the trail community and community leaders 
to gather support and identify privately held parcels that would meet 
both community needs as well as environmental concerns.
    Question 17. The New England Wilderness Act of 2006 established the 
Moosalamoo National Recreation Area (NRA). There are more than 70 miles 
of trails within the NRA in need of work, and many more trails 
throughout the GMNF. Will there be sufficient resources to get the new 
NRA in good shape quickly without draining resources from other 
important trails work in GMNF?
    Answer. The trail mileage in the Moosalamoo National Recreation 
Area (NRA) represents less than 10 percent of the total trail mileage 
on the Green Mountain and Finger Lakes National Forest. Though the 
Forest Service is very supportive of the Moosalamoo area, diverting 
limited trail funding to the Moosalamoo NRA can only be achieved by 
reducing funds needed for the remainder of the Forest. Outside the 
Moosalamoo NRA is significant trail mileage on the Appalachian National 
Scenic Trail, the North Country National Scenic Trail (located in New 
York State) and the White Rocks National Recreation Area that are also 
in need of additional trail funding.
    Question 18. The August 18, 2006 issue of Science, one of the most 
prestigious scientific journals, included a piece written by scientists 
from the Scripps Institution of Oceanography and from the U.S. 
Geological Survey, titled ``Warming and Earlier Spring Increase Western 
U.S. Forest Wildfire Activity.'' I am sure you have read it. To quote 
one of the authors of the paper, ``The increase in large wildfires 
appears to be another part of a chain of reactions to climate 
warming.'' Given that fire-related costs are taking up an increasing 
amount of the Forest Service budget, with the Administration having 
proposed that 45 percent of the FY 2008 budget be for this purpose, 
what direction has the Administration issued regarding the need to 
address climate change in land and resource management plans?
    Answer. To date, we have issued no specific direction on the need 
to address climate change in land management plans. The agency has 
initiated several studies on this topic and is considering available 
options. One of these options is associated with the U.S. Climate 
Change Science Program (CCSP) (http://www.climatescience.gov/), of 
which the Department of Agriculture is a partner. The CCSP creates 
Synthesis and Assessment Products (SAP), which respond to the CCSP 
highest priority research, observation, and decision support needs. 
Currently under draft is SAP 4.4, titled, ``Preliminary Review of 
Adaptation Options for Climate-Sensitive Ecosystems and Resources.'' 
One chapter of SAP 4.4 focuses on the national forests. Other chapters 
include National Parks, National Wildlife Refuges, National Estuary 
Program, Wild and Scenic Rivers, and Marine Protected Areas. For the 
national forests chapter, management options are reviewed for adapting 
to climate change on national forests. Also, the characteristics of 
ecosystems and adaptation responses are identified that would help 
promote successful strategic guidance in land management plans.
     Responses of the Department of Agriculture to Questions From 
                             Senator Wyden
                            healthy forests
    Question 19. As discussed in the hearing, please identify each 
account that contains the fuels treatment spending as authorized under 
the Healthy Forest Restoration Act and the amount of funding requested 
in that account.
    Answer. The agency cannot provide specific fuels treatment funding 
as FY 2008 projects have not been finalized as of this time. The FY 
2008 President's budget for the Healthy Forests Initiative includes 
hazardous fuels project funding requested in FY 2008 as well as other 
supporting funding as follows:

           FY 2008 HEALTHY FORESTS INITIATIVE--FOREST SERVICE
                     [Dollars Amounts in Thousands]
------------------------------------------------------------------------
                                                               FY 2008
                          Program                               Budget
------------------------------------------------------------------------
Research...................................................      $28,000
State & Private Forestry:
    Forest Health Management...............................      $15,000
    State Fire Assistance..................................      $27,500
National Forest System:
    Forest Products........................................      $78,691
    Vegetation & Watershed.................................      $65,524
    Wildlife & Fish........................................      $15,295
    Stewardship Contracting \1\............................      $71,000
Wildland Fire Management:
    Hazardous Fuels \2\....................................     $291,583
    National Fire Plan R&D.................................      $13,000
    Joint Fire Sciences....................................       $4,000
                                                            ------------
      Forest Service Total Funding.........................     $609,593
                                                            ------------
Acres treated for Hazardous Fuels Reduction:
    Forest Service--Hazardous Fuels Funds:
        Acres Treated Inside WUI...........................        1,500
        Acres Treated Outside WUI..........................          300
        Accomplish With Other Funds \2\....................        1,150
                                                            ------------
          FS Total Acres Treated...........................        2,950
------------------------------------------------------------------------
\1\ Accomplishments from large Stewardship Contracts (>100,000 acres)
  are reported in the year in which task orders are issued for the work,
  rather than the entire scope of the contract.
\2\ Forest Service FY 2008 targets for Hazardous Fuels Reduction
  accomplished with other funds include acres treated as a secondary
  benefit to other land management activities, and estimated acres
  treated through: Wildland Fire Use events, Hazard Mitigation Grants
  awarded under the State Fire Assistance program, and activities of the
  Southern Nevada Public Lands Management Act.

                     community assistance programs
    Question 20a. The Administration continues to ask for and expect 
more of our states and local communities, yet the Administration keeps 
cutting the tools to help them be successful partners in forest health, 
fire protection and economic development. This year's budget proposes 
cuts to State and Volunteer Fire Assistance and zeroes out the Economic 
Action Program (EAP)--key programs that provide specifically targeted 
funding for forest communities. These proposed reductions mean a 
continued decline in community fire assistance funds that are critical 
to at-risk communities. How will the Forest Service ensure effective 
partnerships with at-risk communities when community assistance funding 
is under-funded and continues to decline?
    Answer. The Budget recognizes the primacy of State, local, and 
volunteer fire departments in wildland fire management on non-Federal 
lands. The Forest Service values these partnerships and will continue 
to work with the States to assist them in carrying out their programs 
with a reduced budget. The Administration's budget proposal for State 
and local fire assistance is formulated to balance different areas of 
necessary Wildland Fire Management work, and is based on the priority 
of Cooperative Fire Protection among all discretionary programs.
    The Administration values its role in working with at-risk 
communities. Through expanded partnerships with State Foresters, 
universities, and other Federal and State agencies, many more entities 
are being encouraged to support economic development opportunities in 
rural communities. USDA Rural Development has a vast array of community 
assistance programs that are available for local business and community 
projects. The Forest Service continues to encourage USDA Rural 
Development to extend its program and services to meet the growing 
demand of local communities.
    Question 20b. The EAP program helps ensure that forest-dependent 
communities can be full partners with the federal government in 
restoring forest ecosystems through grants and technical assistance to 
build restoration-based businesses, develop and implement collaborative 
planning and monitoring, and leverage private sector dollars. How does 
the Forest Service intend to fulfill these goals without EAP?
    Answer. The agency encourages Forest Service employees to provide 
technical assistance to rural communities when requested regardless of 
the budget the account they might be paid from. Specifically, the Wyden 
Amendment (Public Law 109-54, Section 434) authorizes the Forest 
Service to enter into cooperative agreements to benefit resources 
within watersheds on National Forest System lands. Agreements may be 
with willing Federal, Tribal, State, and local governments, private and 
nonprofit entities, and landowners to conduct activities on public or 
private lands for the following purposes:

  <bullet> Protection, restoration, and enhancement of fish and 
        wildlife habitat and other resources,
  <bullet> Reduction of risk for natural disaster where public safety 
        is threatened, or
  <bullet> A combination of both.

    Additionally, State and Private Forestry Cooperative Fire 
Protection and Forest Health Management programs will be able to 
provide financial assistance to rural communities through the State 
Foresters.
    Alternative programs exist through USDA Rural Development and State 
and Private Forestry for rural community assistance other than Economic 
Action.
                     forest and rangeland research
    Question 21a. Funding for research on reducing the risk from 
wildlands fires, one of the most critical problems facing the Forest 
Service, is being cut 6%. Funding to reduce the impacts of invasive 
species, another critical problem, is being cut by 17%. You are 
proposing to cut the research staff by 173 FTEs or almost 10%. This is 
on top of a cut of the 36 scientists that you are making this year.
    Answer. Yes, except that the 36 Scientists are included in the 173 
FTEs.
    Question 21b. One of the few research programs that have funding 
increases is in the energy resources area, but this brings total 
funding for this program to just over $13 million. That's a tiny 
fraction of the $400 million that USDA is asking for energy initiatives 
overall. Why aren't more resources being devoted to making forests and 
the forest products industry part of the energy solution at USDA?
    Answer. FS R&D is working to overcome supply, sustainability, and 
costs barriers for bioenergy, biofuels, and bioproducts. There is an 
opportunity to use fuel treatments, forest residues, small-stems, and 
energy crops to supply the feedstocks. We are addressing biomass 
management, harvest, and transportation issues to ensure low cost, 
sustainable supplies. Work is also increasing in hybrid poplar and 
other species to accelerate growth and survival rates for plantation 
feedstock production. Work at the Forest Products Laboratory has led to 
a recent patent on a new micro-organism capable of metabolizing 5-
carbon sugars, the absence of which have posed the biggest obstacles to 
converting wood to ethanol as efficiently as corn to ethanol. On going 
R&D efforts at the Forest Products Laboratory has been focused on 
improving the efficiency of the ethanol conversion process which will 
facilitate new technology deployment and product profitability. The 
Forest Inventory and Analysis program has been instrumental along with 
other Research modeling techniques to increase the accuracy estimating 
volumes and locations of hazardous fuels that are close to industrial 
sites capable of converting woody biomass to energy.
                              realignment
    Question 22. Realignment: In a memorandum dated January 21, 2007, 
from Chief Dale Bosworth to Regional Foresters and Others and entitled 
``Forest Service Realignment'' (file code 1200) (attached), the Chief 
ordered a 25% cut in operating costs for the Washington Office (WO) and 
Regional Offices (ROs) by FY2009 (FY2006 baseline). So as to be able to 
assess just how much money is to be saved by such measures, what was 
the actual amount of money spent to operate the WO and each RO in 
FY2006?
    Answer. The Forest Service has committed to reducing personnel 
operating costs at the Washington Office and Regional Offices by 25% by 
the end of Fiscal Year 2009. The baseline Fiscal Year 2006 personnel 
operating costs we are currently validating are as follows:

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Region 1................................................     $22,456,606
Region 2................................................      21,263,549
Region 3................................................      25,345,279
Region 4................................................      27,432,683
Region 5................................................      25,753,153
Region 6................................................      43,581,711
Region 8................................................      29,727,094
Region 9................................................       9,971,947
Region 10...............................................      18,870,638
WO......................................................     137,827,455
                                                         ---------------
      TOTAL.............................................     362,230,114
------------------------------------------------------------------------

     Responses of the Department of Agriculture to Questions From 
                            Senator Salazar
                                  fire
    Question 23. The proposed budget cuts State & Volunteer Fire 
Assistance by 8%. These programs are important to local communities. 
How do you explain these cuts to local communities?
    Answer. The Budget recognizes the primacy of State, local, and 
volunteer fire departments in wildland fire management on non-Federal 
lands. The Administration's budget proposal for State and local fire 
assistance is formulated to balance different areas of necessary 
Wildland Fire Management work and is based on the priority of State & 
Volunteer Fire Assistance among all discretionary programs in the 
agency and government-wide.
    The FY 2008 President's budget includes an increase of 3% for State 
Fire Assistance over FY 2007. Volunteer fire assistance is proposed for 
a 56% increase over FY 2007.
                              bark beetles
    Question 24. Chief Kimbell, In 2006 Chief Bosworth allocated funds 
from the Chiefs Reserve Fund to work in Colorado to reduce the threat 
of wildfire. I'd like to encourage you to consider using any 
appropriated reserve funds in Colorado for the same purpose in 2007. Is 
that something you will consider?
    Answer. Yes.
    Question 25. Chief Kimbell, have you finalized the FY 2007 
allocations to the regions? I am especially interested to know that 
accounts whose work touches on mitigating the effects of the bark 
beetle infestation are adequately funded. Will you commit to me to 
review the region 2 allocations including hazardous fuels reduction, 
forest products, and fire preparedness to ensure they are as robust as 
possible?
    Answer. Yes. The FY 2007 final budget allocations for every region 
have been established to ensure that the total funding from the 
combined Forest Products, Salvage Sale Fund, Knutson-Vandenberg Fund 
(using expanded authority for regional treatments), and Hazardous Fuels 
budget line items is not less than the FY 2006 final budget allocation 
in these budget line items for each region.
                          land sales proposal
    Question 26. The President's proposal to sell off 300,000 acres to 
generate $800 million has not received a warm welcome in Colorado. I 
continue to oppose this approach. What type of public input was 
received from individuals, organizations, and local governments prior 
to re-submitting this proposal?
    Answer. Last year during the public comment period the Forest 
Service received over 103,000 comments from hand written, email, and 
form letters, as well as telephone calls and individual letters, on the 
list of potentially eligible land parcels identified through the public 
screening. These comments, which were very specific to being both 
against and in support of the proposal, helped the agency in 
identifying issues related to specific parcels of land. Based on the 
analysis of these comments, the original list of potentially eligible 
land parcels was reduced to approximately 274,000 acres from 301,000 
acres, resulting in the removal of 242 parcels from the sale list. 
Within this amount, 16 parcels totaling 1,500 acres were removed from 
the Colorado list.
                               recreation
    Question 27. Region No. 2, whose forests provide recreation to 
approximately 32 million people every year, receives the lowest 
recreation, heritage and wilderness funding per visit out of any FS 
region ($0.60 per visit as compared to $1.06 per visit for Region 1 in 
the Northern Rockies). In Colorado a unique group of conservationists, 
off road vehicle enthusiasts, and sportsmen have come together to ask 
the USFS to boost recreation funding in region 2 to implement travel/
rec management plans. At the same time, we are reading in the papers 
about recreational facility closings and new recreation fees.
    How do you square that with the $27.4 million decrease for 
Recreation in the FY08 Budget Request?
    Answer. The FY 2008 President's budget proposal is a balanced 
attempt to meet the demands of all program areas within the National 
Forest System under a constrained budget. In striking this balance, the 
agency will focus on directing available resources towards meeting 
long-term strategic goals and providing increased support to programs 
that advance sustainable resource management, which includes providing 
outdoor recreational opportunities. Although funding allocations to the 
field are not fully determined in advance of appropriations the agency 
will continue to emphasize distributing funds in areas that maximize 
recreation delivery, including the Rocky Mountain Region (Region 2), 
and address the highest priority efforts that provide services to the 
public and strengthen partnerships which are vital to accomplishing 
stewardship work on the ground.
    The Forest Service has not identified specific site closures that 
will be affected by the FY 2008 budget reduction. The agency is 
currently undergoing a review of its recreation facilities through the 
Recreation Site Facility Master Planning (RS-FMP) process that will 
result in a higher quality, more efficiently managed developed 
recreation program where the facilities reflect visitor desires and 
use. Many of the Forest Service's developed recreation sites were built 
30-50 years ago. Since then, visitor preferences and demographics have 
changed. Some sites no longer serve projected recreation demand; some 
facilities are in poor shape and do not meet visitors' expectations. 
Facility master planning helps each national forest align their 
developed recreation sites with the unique characteristics of the 
forest, projected recreation demand, visitor expectations, and revenue. 
Involvement of the local public, surrounding communities and each 
national forest's recreation visitors is a critical and essential 
component of the RS-FMP process and for any proposal to charge new or 
change any existing recreation fees.
     Responses of the Department of Agriculture to Questions From 
                            Senator Domenici
                           fire preparedness
    Question 28. The FY 2008 budget proposes to reduce the fire 
preparedness funding level in two ways. First, it proposes to establish 
an account to pay the salaries of the wildland fire fighters and, next, 
it proposes to reduce funding for fire preparedness by approximately 
$90 million below the FY 2006 appropriated level.
    Undersecretary Rey, you are proposing a separate line item for 
wildland fire fighters salaries--can you explain why that is needed?
    Answer. The new appropriation addresses the complexity associated 
with wildland fire and other hazards by providing funding specifically 
for 10,010 professional wildland firefighters. The separate account 
ensures a stable number of firefighters and complements the Forest 
Service's transition to a risk-informed performance-based system; it 
enhances performance, improves accountability, and provides greater 
efficiency in managing wildland fires and supporting all-hazard 
responses.
    Question 29. If funded at the level of $219.7 million that you have 
requested, how many fire fighters will be hired?
    Answer. The agency plans to have 10,010 firefighters in FY 2008.
    Question 30. How much funding did you expend on fire fighters 
salaries in FY 2006 and how many fire fighters did you hire?
    Answer. In FY 2006 we did not specifically track firefighter 
salaries; implementation of the wildland Firefighter Appropriation in 
FY 2008 will provide this capability. In FY 2006, we had approximately 
9,550 firefighters.
    Question 31. You have also requested approximately a $90 million 
reduction for wildland preparedness beyond pulling the fire fighter 
salaries from this line item. What will be the results of this 
reduction? That is, will we see reductions in fire fighting equipment 
or in the amount and quality of training?
    Answer.

------------------------------------------------------------------------
                                         FY 2007    FY 2008
               Resource                  Planned    Planned   No. Change
------------------------------------------------------------------------
Firefighters..........................     10,010     10,010
    Interagency Hot Shot Crews........         67         67
Engines...............................        950        726       (224)
Heavy Equipment--(Bulldozers & water          215        167        (48)
 tenders).............................
Aircraft (contracted):
    T1, 2, 3 Regional Helicopters.....         84         65        (19)
    National T2 Helicopters...........          7          5         (2)
    National Type 1 Helicopters.......         15          8         (7)
    National Airtankers...............         20         12         (8)
    National Lead Planes..............         12          3         (9)
    Jet--Crew Transport...............          1          0         (1)
Prevention Technicians................        399        277       (122)
Smokejumpers..........................        277        190        (87)
------------------------------------------------------------------------

    The transition to a risk informed performance based system, 
Appropriate Management Response (AMR) and improved incentives, such as 
including acres burned at less than severe levels toward attainment of 
healthy forests treatment goals, will require fewer traditional 
suppression resources. The agency will prioritize resources to the 
areas where the highest risk exists. Additionally, if the fire season 
is projected to be severe, preparedness resources will be replenished.
    The quality of training will not be diminished; reprioritizing 
existing resources and personnel will ensure the continuation of 
quality training. In addition, where appropriate, savings identified 
through implementation of efficiencies such as the potential reduction 
of Geographical Coordination Centers and consolidation of fire 
facilities will be used to enhance training.
    Question 32. How will this affect the agency's ability to put out 
fires during initial attacks?
    Chief Kimball, let me begin by congratulating you and your staff on 
the improvement in performance criteria in this year's budget 
justification. While other improvements are needed, I can see an effort 
is being made to make these performance measures more meaningful.
    Answer. Based on strategies outlined in the FY 2008 President's 
Budget and highlighted in the answer to question No. 31, the Forest 
Service anticipates a 2 to 5 percent decrease in the number of 
wildfires suppressed during initial attack, which would be consistent 
with our transition to a risk informed performance based system. The 
use risk-informed management will reduce costs compared to a full-
suppression strategy and secure desirable environmental outcomes 
without compromising cost containment objectives. New decision tools 
and management controls will allow managers to make more informed 
decisions relative to risk and resources.
    Question 33. I see from a February 21st Yakima Herald-Republic news 
article that 23 percent of 3,300 fire fighters who participated in a 
survey would decline to serve as an incident commander, and 36 percent 
of those surveyed indicated they would decline fire fighting 
assignments this next summer as a result of the recent involuntary 
manslaughter charges resulting from the Thirtymile Fire case.
    Are you familiar with this survey which was done by the 
International Association of Wildland Fire Fighters?
    Answer. Yes. We have monitored the results and are assessing what 
the survey may tell us. Unfortunately, the legal action has caused 
concern within the entire firefighting community, including our 
interagency cooperators. We would be remiss not to have empathy for any 
firefighter in this situation. However, our highly trained special 
resources such as smokejumpers and hot-shots crews still remain highly 
sought after positions for motivated firefighters.
    Question 34. How much credence do you put into this survey?
    Answer. We do not know the methodology and margin of error for this 
survey but we have to accept the survey for what it was--an opportunity 
for firefighters to speak out on issues, much like they did in the 
federally sponsored ``Fire Fighter Safety Awareness Study'' TriData 
study--conducted in 1997, in which over a thousand firefighters 
surveyed provided feedback on improving the wildland fire community as 
well as improving conditions for firefighters out in the field. 
Wildland firefighters maintain a close-spirited esprit d'corps and we 
expect the majority of our highly experienced and skilled firefighters 
to return.
    Question 35. Can Incident Commander or other key fire organization 
personnel purchase liability insurance to protect themselves from these 
kinds of investigations? If so what would it cost the Forest Service to 
provide such coverage?
    Answer. Personnel in supervisory positions may purchase liability 
insurance if they choose. In cases as described above, the agency will 
pay for one half of the cost of the insurance premium. Other personnel 
may purchase liability insurance if they choose as well but are 
currently required to cover the full cost of the premiums. Liability 
insurance does not protect a person from being the subject of a legal 
investigation. Nor does it preclude personnel from being questioned 
during the course of a legal investigation. Professional Liability 
insurance provides protection against claims that the policyholder 
becomes legally obligated to pay as a result of an error or omission in 
his or her professional work. The purpose of our safety investigation 
is to determine the true causal factors of an accident and extract 
lessons learned to prevent death, injuries, or future accidents. Should 
it be determined that the fear of being liable is a barrier to fielding 
firefighters, an appropriate mitigation would be pursued.
    If the agency were to help provide liability insurance coverage for 
approximately 8,000 employees it is estimated that it would cost the 
Forest Service $1.2 million dollars per year.
    Question 36. Have you done any checking of your employees to see if 
they are serious about stepping away from fire fighting this summer and 
beyond?
    Answer. We are open to receiving feedback from all of our 
employees. We have noted a few instances of personnel not renewing 
specific qualifications but we have not determined what the cause is in 
each specific situation. In the case of wildland firefighters, at the 
height of one busy summer day, 25,000 firefighters and support 
personnel can be working on fires. We would expect our fire managers at 
local, regional, and national levels to report upwards if they were 
observing trends with firefighters and support personnel indicating 
they would not be taking assignments.
    Question 37. What will you do if 23 percent of your Incident 
Commanders do decline to serve this summer?
    Answer. We will not be able to estimate the impact until all of our 
temporary employees return to work and their 2007 qualification cards 
are updated and distributed. We believe the long term impacts will be 
substantially less than was indicated by the recent International 
Association of Wildland Firefighters polling of firefighters. 
Regardless of any impact, we will continue to place only qualified 
individuals on incidents.
    Question 38. I would like you to provide this Committee with a 
cost-benefit analysis of what would happen to your ability to 
successfully fight fires and your costs of fighting fires if 25% of 
your Incident Commanders and 36% of you part-time fire organization 
members called it quits when it comes to fire fighting. Then compare 
that to the cost of providing liability insurance or a legislative 
waiver that will offer these fire fighters the legal support needed to 
defend themselves from such charges.
    Answer. Conducting a cost benefit analysis on our ability to 
successfully fight fires and the costs thereof, with the reductions you 
mentioned, is not possible since the potential losses from future fire 
events are not known. Should our capability to manage incidents become 
diminished, the agency will pursue appropriate mitigations to remedy 
the situation.
                            invasive species
    Question 39. Chief Kimball, you've listed the following Strategic 
Goals and proposed the following budget changes:

  <bullet> Reduce Wildfire Risk--$1.9 billion; 5.7 percent increase;
  <bullet> Reduce Invasive species--$117.8 million; 41 percent decrease 
        from FY 2006 levels;
  <bullet> Provide Recreation Opportunity--$760 million; slight 
        decrease;
  <bullet> Help meet Energy Needs--$102 million; 5 percent decrease;
  <bullet> Improve Watersheds--$983 million; 8 percent decline; and
  <bullet> Other Forest Service Programs--$741 million; nearly a 30 
        percent decrease.

    Does a 41 percent decrease in funding mean that you have thrown in 
the towel on invasive species? What will be the impact of this dramatic 
reduction?
    Answer. The Forest Service is not abandoning the fight against 
invasive species. Budget constraints require the agency to focus 
program priorities very carefully and difficult decisions had to be 
made. In FY 2008 there is more attention on early detection and rapid 
response toward new forest insect and pathogen invaders and this 
emphasis should save funds in the long term.
                       general funding reductions
    Question 40. I am concerned by the amount of reduction proposed for 
all of the other Forest Service programs. A 30% reduction in all of the 
rest of the programs is significant, and I want to understand what 
other steps can be taken to lessen the impact of such a large decrease 
in funding?
    Answer. The Forest Service is undertaking a number of actions to 
redirect funding to field units, one of which is the Business 
Operations Transformation Program (BOTP) that is centralizing, 
streamlining, and reengineering: Information Technology (IT), Financial 
Management (FM) and Human Capital (HC) services. The purpose of the 
program is to 1) improve efficiency of service, 2) reduce indirect 
costs, and 3) focus on improving the ability of Forest Service 
employees to meet the agency mission. The program has been implemented 
over the last three years and in FY 2008 will realize a next cost 
reduction of $86.3 million. These are funds that can be redirected to 
field units to improve the ability of the Forest Service to meet the 
agency land and resource management mission.

                        [In Millions of Dollars]
------------------------------------------------------------------------
                                                     FY 2007    FY 2008
                    BOTP Total                       Planned    Planned
------------------------------------------------------------------------
Original Organization.............................      318.6      326.0
Redesigned Organization...........................      234.1      239.7
Implementation Cost...............................       19.8    ( \1\ )
                                                   ---------------------
      Net Cost Reduction..........................       64.7       86.3
------------------------------------------------------------------------
\1\ Not applicable.

    Second, competitive sourcing studies completed since FY 2003 have 
resulted in the following savings and cost reductions:
Through FY 2005: $20.2 Million

  <bullet> $65 thousand--R6 Olympic NF Roads Maintenance (8 FTEs) (8 
        Months)
  <bullet> $1.6 million--R5 Fleet Maintenance (59 FTEs) (7 Months)
  <bullet> $998 thousand--R5 Roads Maintenance (66 FTEs) (15 Months)
  <bullet> $16.8 million--IT Infrastructure (1,200 FTEs) (11 Months)--
        Reduction of 292 FTE by 9/05

In FY 2006: $19.6 Million

  <bullet> $62 thousand--R6 Olympic NF Roads Maintenance
  <bullet> $844 thousand--R5 Fleet Maintenance. Savings reported 
        through April only. Contract terminated 05/06.
  <bullet> $241 thousand--R5 Roads Maintenance. Savings adjusted due to 
        effect of fewer than planned projects due to lower than 
        anticipated budget.
  <bullet> $18.4 million--IT Infrastructure.

    Finally, the agency has convened a National Transformation 
Management Team to evaluate and redesign the Washington and Regional 
Office organizational structure. The goal of this team is to reduce 
operating costs by 25 percent by the end of FY 2009. The effort will 
include the National Forest System, State and Private Forestry program 
areas, as well as components of Business Operations and Research and 
Development and result in an agency that maximizes capabilities and 
efficiencies, realigns fragmented organizations, and eliminates 
duplicate efforts by the Washington Office, regions, stations, and the 
Northeast Area. Project milestones include an approved Transformation 
Design Plan with organizational development phases. These phases 
include data collection, analysis, concepts and design, projected cost 
savings, and proposed migration plans to new organizations between 
March 2008 and September 2009.
    Question 41a. Could you provide the Committee with an estimate of 
how much of the discretionary budget is consumed by salaries, benefits, 
and travel for each of the following work areas: Research, State and 
Private, National Forest Systems; and the national fire plan.
    Answer.

                               FY 2006 OBLIGATIONS BY MAJOR BUDGET OBJECT GROUPING
----------------------------------------------------------------------------------------------------------------
              Fund                     OBLIG          SALARY         BENEFITS         TRAVEL           OTHER
----------------------------------------------------------------------------------------------------------------
Research........................        $307,213        $150,648         $43,708         $13,388         $99,469
    Percentage..................          100.00           49.04           14.23            4.36           32.38
State & Private Forestry........        $391,206         $52,476         $14,569          $6,421        $317,740
    Percentage..................          100.00           13.41            3.72            1.64           81.22
National Forest System..........      $1,469,100        $668,825        $214,440         $48,211        $537,624
    Percentage..................          100.00           45.53           14.60            3.28           36.60
Wildland Fire Management........      $2,434,679        $745,761        $220,067         $71,577      $1,397,273
    Percentage..................          100.00           30.63            9.04            2.94           57.39
Capital Improvement &                   $454,975        $147,988         $48,882          $8,867        $249,238
 Maintenance....................
    Percentage..................          100.00           32.53           10.74            1.95           54.78
Land Acquisition................         $87,532          $6,195          $1,756            $382         $79,199
    Percentage..................          100.00            7.08            2.01            0.44           90.48
----------------------------------------------------------------------------------------------------------------
Note.--Total obligations may be $1--$2 million different from amount of Direct Obligations shown in the FY 2008
  President's Budget Appendix due to rounding.

    Obligations are those of appropriated budget authority only.

          1. State and Private Forestry does not include $5 million in 
        Forest Land Enhancement Program (FLEP) obligation.
          2. Land Acquisition does not include $1.2 million in 
        obligations from Acquisition of Lands to Complete Land 
        Exchanges and Acquisitions--Special Acts.

    Obligations for National Fire Plan funds transferred from Wildland 
Fire are recorded in the Appropriation to which they are transferred.

  <bullet> Fire Research obligations are recorded in Research.
  <bullet> Restoration obligations are recorded in National Forest 
        System.
  <bullet> NFP State Fire Assistance, Volunteer Fire Assistance, Forest 
        Health Management Fed and Coop Lands are recorded in State and 
        Private Forestry.

    Question 41a. Could you provide the Committee with an estimate of 
how much of the discretionary budget is expended at the following line 
levels: the Washington Office; the Regional Offices; the Forest 
Supervisors Offices; the District Offices; and the Research Stations.
    Answer.

   FY 2006 YEAR END BUDGET AUTHORITY ANALYSIS (INCLUDING CARRYOVER AND
                                RECEIPTS)
------------------------------------------------------------------------
                                                                 Percent
                                                                Expended
         Region/Unit              Unit Name          Total      at Local
                                                                  Level
------------------------------------------------------------------------
REGION 1:
    0102                       BEAVERHEAD-          18,969,913      0.30
                                DEERLODGE.
    0103                       BITTERROOT.....      13,930,500      0.22
    0104                       IDAHO PANHANDLE      35,827,759      0.56
    0105                       CLEARWATER.....      19,434,497      0.30
    0108                       CUSTER.........       9,722,924      0.15
    0110                       FLATHEAD.......      23,410,183      0.37
    0111                       GALLATIN.......      16,190,039      0.25
    0112                       HELENA.........      12,746,040      0.20
    0114                       KOOTENAI.......      27,715,199      0.43
    0115                       LEWIS AND CLARK      11,937,513      0.19
    0116                       LOLO...........      23,189,726      0.36
    0117                       NEZPERCE.......      21,141,554      0.33
    0118                       DAKOTA PRAIRIE        9,517,862      0.15
                                GRASSLANDS.
    0152                       AERIAL FIRE          11,847,060      0.19
                                DEPOT.
    0156                       R1 REGIONAL          79,945,857      1.25
                                OFFICE.
    0198                       CENTRALLY            14,089,556      0.22
                                ADMINISTERED
                                REGIONAL
                                PROJECTS.
                              ------------------------------------------
                               REGIONAL TOTAL.     349,616,182      5.46
                              ------------------------------------------
                               Forests Total..     243,733,709
                              ------------------------------------------
REGION 2:
    0202                       BIGHORN........      10,504,639      0.16
    0203                       BLACK HILLS....      36,872,272      0.58
    0204                       GRAND MESA-UNC-      19,508,300      0.30
                                GUNN.
    0206                       MEDICINE BOW/        24,603,500      0.38
                                ROUTT.
    0207                       NEBRASKA.......       8,342,100      0.13
    0209                       RIO GRANDE.....      10,915,858      0.17
    0210                       ARAPAHO-             24,443,800      0.38
                                ROOSEVELT.
    0212                       PIKE-SAN ISABEL      28,497,456      0.45
    0213                       SAN JUAN.......      19,645,075      0.31
    0214                       SHOSHONE.......      12,218,949      0.19
    0215                       WHITE RIVER....      18,314,600      0.29
    0231                       R2 REGIONAL          59,438,090      0.93
                                OFFICE.
    0298                       CENTRALLY             8,576,761      0.13
                                ADMINISTERED
                                REGIONAL
                                PROJECTS.
                              ------------------------------------------
                               REGIONAL TOTAL.     281,881,400      4.40
                              ------------------------------------------
                               Forests Total..     213,866,549
                              ------------------------------------------
REGION 3:
    0301                       APACHE-              26,993,030      0.42
                                SITGREAVES NF.
    0302                       CARSON NF......      15,197,808      0.24
    0303                       CIBOLA NF......      18,228,730      0.28
    0304                       COCONINO NF....      32,832,723      0.51
    0305                       CORONADO.......      22,027,581      0.34
    0306                       GILA...........      21,128,278      0.33
    0307                       KAIBAB.........      13,840,536      0.22
    0308                       LINCOLN........      15,486,910      0.24
    0309                       PRESCOTT.......      14,716,731      0.23
    0310                       SANTA FE.......      22,025,249      0.34
    0312                       TONTO..........      28,007,080      0.44
    0316                       R3 REGIONAL          49,809,595      0.78
                                OFFICE.
    0398                       CENTRALLY             4,191,258      0.07
                                ADMINISTERED
                                REGIONAL
                                PROJECTS.
                              ------------------------------------------
                               REGIONAL TOTAL.     284,485,509      4.44
                              ------------------------------------------
                               Forests Total..     230,484,656
                              ------------------------------------------
REGION 4:
    0401                       ASHLEY.........      14,037,776      0.22
    0402                       BOISE..........      31,079,504      0.49
    0403                       BRIDGER-TETON..      17,253,656      0.27
    0407                       DIXIE..........      18,214,046      0.28
    0408                       FISHLAKE.......      14,783,919      0.23
    0410                       MANTI-LASAL....      11,486,563      0.18
    0412                       PAYETTE........      25,091,197      0.39
    0413                       SALMON-CHALLIS.      22,374,951      0.35
    0414                       SAWTOOTH.......      17,717,120      0.28
    0415                       CARIBOU-TARGHEE      22,780,016      0.36
    0417                       HUMBOLDT-            34,390,989      0.54
                                TOIYABE.
    0418                       UINTA..........      13,585,190      0.21
    0419                       WASATCH-CACHE..      20,615,134      0.32
    0460                       R4 REGIONAL          50,952,436      0.80
                                OFFICE.
    0498                       CENTRALLY            13,522,315      0.21
                                ADMINISTERED
                                REGIONAL
                                PROJECTS.
                              ------------------------------------------
                               REGIONAL TOTAL.     327,884,812      5.12
                              ------------------------------------------
                               Forests Total..     263,410,061
                              ------------------------------------------
REGION 5:
    0501                       ANGELES........      36,342,097      0.57
    0502                       CLEVELAND......      22,660,322      0.35
    0503                       ELDORADO.......      23,084,367      0.36
    0504                       INYO...........      17,000,222      0.27
    0505                       KLAMATH........      26,113,093      0.41
    0506                       LASSEN.........      29,708,855      0.46
    0507                       LOS PADRES.....      24,905,302      0.39
    0508                       MENDOCINO......      15,796,234      0.25
    0509                       MODOC..........      14,593,304      0.23
    0510                       SIX RIVERS.....      19,052,710      0.30
    0511                       PLUMAS.........      34,821,288      0.54
    0512                       SAN BERNARDINO.      50,934,462      0.80
    0513                       SEQUOIA........      23,725,486      0.37
    0514                       SHASTA TRINITY.      38,394,470      0.60
    0515                       SIERRA.........      23,207,341      0.36
    0516                       STANISLAUS.....      27,565,269      0.43
    0517                       TAHOE..........      25,674,727      0.40
    0519                       LAKE TAHOE           49,744,289      0.78
                                BASIN MGMT
                                UNIT.
    0520                       R5 REGIONAL         115,489,121      1.80
                                OFFICE.
    0598                       CENTRALLY            14,557,846      0.23
                                ADMINISTERED
                                REGIONAL
                                PROJECTS.
                              ------------------------------------------
                               REGIONAL TOTAL.     633,370,805      9.89
                              ------------------------------------------
                               Forests Total..     503,323,838
                              ------------------------------------------
REGION 6:
    0601                       DESCHUTES......      41,103,482      0.64
    0602                       FREMONT-WINEMA.      34,647,183      0.54
    0603                       GIFFORD PINCHOT      19,994,914      0.31
    0604                       MALHEUR........      22,111,226      0.35
    0605                       MT BAKER-            19,768,143      0.31
                                SNOQUALMIE.
    0606                       MT HOOD........      19,867,094      0.31
    0607                       OCHOCO.........      12,601,451      0.20
    0609                       OLYMPIC........      15,344,886      0.24
    0610                       ROGUE RIVER-         39,168,236      0.61
                                SISKIYOU.
    0612                       SIUSLAW........      17,132,398      0.27
    0614                       UMATILLA.......      21,567,957      0.34
    0615                       UMPQUA.........      24,659,843      0.39
    0616                       WALLOWA WHITMAN      26,097,837      0.41
    0617                       OKANOGAN-            42,558,212      0.66
                                WENATCHEE.
    0618                       WILLAMETTE.....      33,369,074      0.52
    0621                       COLVILLE.......      15,302,353      0.24
    0622                       COLUMBIA RIVER        6,146,207      0.10
                                GORGE NAT AREA.
    0627                       R6 REGIONAL          94,522,752      1.48
                                OFFICE.
    0698                       CENTRALLY               546,970      0.01
                                ADMINISTERED
                                REGIONAL
                                PROJECTS.
                              ------------------------------------------
                               REGIONAL TOTAL.     506,510,218      7.91
                              ------------------------------------------
                               Forests Total..     411,440,496
                              ------------------------------------------
REGION 8:
    0801                       NFS IN ALABAMA.      17,062,834      0.27
    0802                       DANIEL BOONE...      14,049,374      0.22
    0803                       CHATT-OCONEE...      15,324,282      0.24
    0804                       CHEROKEE.......      19,854,635      0.31
    0805                       NFS IN FLORIDA.      24,489,540      0.38
    0806                       KISATCHIE......      19,553,650      0.31
    0807                       NFS IN               72,517,257      1.13
                                MISSISSIPPI.
    0808                       GEORGE               24,176,720      0.38
                                WASHINGTON/
                                JEFFERSON.
    0809                       OUACHITA.......      34,661,318      0.54
    0810                       OZARK-ST             23,147,077      0.36
                                FRANCIS.
    0811                       NFS IN NORTH         51,061,912      0.80
                                CAROLINA.
    0812                       FRANCIS MARION       19,763,891      0.31
                                & SUMTER.
    0813                       NFS IN TEXAS...      33,274,486      0.52
    0816                       CARIBBEAN......       4,451,004      0.07
    0860                       LAND BETWEEN         12,948,984      0.20
                                THE LAKES NRA.
    0820                       R8 REGIONAL         138,691,136      2.17
                                PROJECTS/
                                SERVICES.
    0836                       SAVANNAH RIVER          174,605      0.00
                                FORESTS
                                STATION.
    0898                       CENTRALLY            25,421,180      0.40
                                ADMINISTERED
                                REGIONAL
                                PROJECTS.
                              ------------------------------------------
                               REGIONAL TOTAL.     550,623,885      8.60
                              ------------------------------------------
                               Forests Total..     386,336,964
                              ------------------------------------------
REGION 9:
    0903                       CHIPPEWA.......      11,281,803      0.18
    0904                       HURON MANISTEE.      17,747,609      0.28
    0905                       MARK TWAIN.....      18,297,382      0.29
    0907                       OTTAWA.........      11,894,982      0.19
    0908                       SHAWNEE........       7,176,489      0.11
    0909                       SUPERIOR.......      28,752,589      0.45
    0910                       HIAWATHA.......      12,940,694      0.20
    0912                       HOOSIER........       5,941,722      0.09
    0913                       CHEQUAMEGON-         27,756,423      0.43
                                NICOLET.
    0914                       WAYNE..........       8,911,260      0.14
    0915                       MIDEWIN NATL          7,027,124      0.11
                                TALLGRASS
                                PRAIRIE.
    0919                       ALLEGHENY......      15,828,276      0.25
    0920                       GREEN MOUNTAIN/      10,100,053      0.16
                                FINGER LAKES.
    0921                       MONONGAHELA....      15,515,919      0.24
    0922                       WHITE MOUNTAIN.      12,665,877      0.20
    0901                       R9 REGIONAL          59,888,801      0.94
                                OFFICE.
    0998                       CENTRALLY             4,024,091      0.06
                                ADMINISTERED
                                REGIONAL
                                PROJECTS.
                              ------------------------------------------
                               REGIONAL TOTAL.     275,751,094      4.31
                              ------------------------------------------
                               Forests Total..     211,838,202
                              ------------------------------------------
REGION 10:
    1004                       CHUGACH........      25,836,665      0.40
    1005                       TONGASS........      80,840,901      1.26
    1001                       R10 REGIONAL         44,907,743      0.70
                                OFFICE.
    1098                       CENTRALLY             6,042,912      0.09
                                ADMINISTERED
                                REGIONAL
                                PROJECTS.
                              ------------------------------------------
                               REGIONAL TOTAL.     157,628,221      2.46
                              ------------------------------------------
                               Forests Total..     106,677,566
                              ------------------------------------------
OTHER UNITS:
    1111                       FOREST PRODUCTS      31,928,040      0.50
                                LAB.
    1201                       INTERNATIONAL         9,592,582      0.15
                                INSTITUTE OF
                                TROPICAL
                                FORESTRY.
    2216                       ROCKY MOUNTAIN       81,873,458      1.28
                                RESEARCH
                                STATION.
    2313                       NORTH CENTRAL        28,069,327      0.44
                                RESEARCH
                                STATION.
    2423                       NORTH EAST           41,582,426      0.65
                                RESEARCH
                                STATION.
    2442                       NORTHEASTERN        108,672,587      1.70
                                AREA.
    2619                       PACIFIC              54,641,731      0.85
                                NORTHWEST
                                RESEARCH
                                STATION.
    2721                       PACIFIC              33,703,382      0.53
                                SOUTHWEST
                                RESEARCH
                                STATION.
    3301                       SOUTHERN             68,694,576      1.07
                                RESEARCH
                                STATION.
                              ------------------------------------------
                               Research            458,758,109
                                Stations and
                                Area Total.
                              ------------------------------------------
13 Total                       WO & DETACHED       376,098,882      5.87
                                UNITS.
14 & 15                        NATIONAL          1,594,247,337     24.90
                                UNALLOCATED
                                (e.g. PAYMENTS
                                TO STATES,
                                USDA WCF &
                                ASSESSMENTS,
                                CHIEF'S
                                EMERGENCY
                                FUND,
                                SUPPRESSION,
                                LAND
                                ACQUISITION,
                                EXCESS KV,
                                OWCP & UCI
                                PAYMENTS).
                               Other Misc.         246,961,996      3.86
                                Direct
                                Obligations.
25                             ALBUQUERQUE         358,044,550      5.59
                                SERVICE CENTER.
                              ------------------------------------------
                               GRAND TOTAL....   6,401,863,000    100
                              ------------------------------------------
                               Forests total..   2,571,112,041
------------------------------------------------------------------------
Note to OMB.--Financial obligations are not reported at the ranger
  district level except for unique ``job codes'' otherwise they are
  reported at the national forest level. Unique job codes were set up
  for Congressional earmark projects on districts This statement will be
  remove for transmittal to the Subcommittee.

    Question 42. As I mentioned I am happy to see that you're making 
efforts to reduce the costs of the Washington Office and Regional 
Offices by 25% by the end of Fiscal Year 2009.
    As your team develops alternatives, would you keep the Committee 
and my staff up to date on what alternative is being considered and 
which programs those funds will be shifted to?
    Answer. Yes, we plan to keep your Committee and your staff, as well 
as other stakeholders informed about the organizational alternatives 
being considered.

                                    

      

</pre></body></html>
